APPENDIX A
US COURT OF APPEALS FOR THE NINTH CIRCUIT CASE
#19-35547
Michael T. Brooks v Centene Corporation; et al
\

u

!

FILED
UNITED STATES COURT OF APPEALS

NOV 3 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

MICHAEL T. BROOKS,
Plaintiff-Appellant,
v.

AGATE RESOURCES, INC., DBA Agate
Healthcare (Oregon ABN 695284-96),
DBA Apropo Benefits Management, LLC,
DBA Employers Health Alliance, LLC,
DBA Health Policy Research Northwest,
DBA Lane Home Medical, LLC, DBA
Lane Individual Practice Association, Inc.,
DBA Trillium Advantage, DBA Trillium
Community Health Plan, DBA Trillium
Community Health Plan, Inc., DBA
Trillium Community Health Plan, LLC,
DBA Trillium Coordinate Care
Organization, Inc., DBA Trillium
Medicare, DBA Trillium Sprout,

No.

19-35547

D.C. No. 6:15-cv-00983-MK
District of Oregon,
Eugene

ORDER

Defendant-Appellee.

Before: TROTT, SILVERMAN, and NR SMITH, Circuit Judges.
Appellant’s motion for judicial notice (Docket Entry No. 4), motion to
disqualify counsel (Docket Entry No. 11), and motions to strike (Docket Entry No.
46 & 49) are denied. Appellant’s motion for extension of time (Docket Entry No.
54) is denied as moot.

Appellee’s motions to strike (Docket Entry Nos. 44 & 52) are denied as
moot.
Appellant’s motion for summary judgment (Docket Entry No. 61) is denied
as moot. Pursuant to this court’s October 22, 2019 order, we do not entertain the
renewed motion for appointment of pro bono counsel.
Appellee’s motions to strike (Docket Entry Nos. 51, 56, 60, 66, & 70) are
granted. The Clerk shall strike: (1) Exhibit 5 to Docket Entry No. 47; (2) Exhibits
XX & YY to Docket Entry No. 54; (3) Exhibits 3, 4, 5, and 8 to Docket Entry No.
57; (4) Exhibits 2, 9, 23, and the DVD attached to Docket Entry No. 62; and (5)
Docket Entry No. 68 (DVDs). The Clerk shall return the stricken DVDs to
appellant. Appellant’s motions to file documents under seal (Docket Entry Nos.
47, 53 57, 62, & 67) are denied as moot.
No further motions for reconsideration, clarification, or modification of this
order shall be filed or entertained.

2

FILED
UNITED STATES COURT OF APPEALS

NOV 9 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

MICHAEL T. BROOKS,
Plaintiff-Appellant,
v.
AGATE RESOURCES, INC., DBA Agate
Healthcare (Oregon ABN 695284-96),
DBA Apropo Benefits Management, LLC,
DBA Employers Health Alliance, LLC,
DBA Health Policy Research Northwest,
DBA Lane Home Medical, LLC, DBA
Lane Individual Practice Association, Inc.,
DBA Trillium Advantage, DBA Trillium
Community Health Plan, DBA Trillium
Community Health Plan, Inc., DBA
Trillium Community Health Plan, LLC,
DBA Trillium Coordinate Care
Organization, Inc., DBA Trillium
Medicare, DBA Trillium Sprout,

No.

19-35547

D.C. No. 6:15-cv-00983-MK
District of Oregon,
Eugene

ORDER

Defendant-Appellee.

Before: TROTT, SILVERMAN, and N.R. SMITH, Circuit Judges.
The non-party request for publication (Dkt Entry # 75) is DENIED.

FILED
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

NOV 5 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

MICHAEL T. BROOKS,
Plaintiff-Appellant,

No.

19-35547

D.C. No. 6:15-cv-00983-MK

v.

MEMORANDUM’
AGATE RESOURCES, INC., DBA Agate
Healthcare (Oregon ABN 695284-96),
DBA Apropo Benefits Management, LLC,
DBA Employers Health Alliance, LLC,
DBA Health Policy Research Northwest,
DBA Lane Home Medical, LLC, DBA
Lane Individual Practice Association, Inc.,
DBA Trillium Advantage, DBA Trillium
Community Health Plan, DBA Trillium
Community Health Plan, Inc., DBA
Trillium Community Health Plan, LLC,
DBA Trillium Coordinate Care
Organization, Inc., DBA Trillium
Medicare, DBA Trillium Sprout,
Defendant-Appellee.

Appeal from the United States District Court
for the District of Oregon
Ann L. Aiken, District Judge, Presiding

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.

Submitted November 3, 2020**

Before: TROTT, SILVERMAN, and NR SMITH, Circuit Judges
Plaintiff Michael Brooks appeals following the district court’s dismissal of
his amended complaint. We have jurisdiction pursuant to 28 U.S.C. § 1291 and
affirm.
The magistrate judges acted within their authority by ruling on nondispositive pretrial matters and issuing a Findings and Recommendation (F&R) on
the defendant’s motion to dismiss the amended complaint. 28 U.S.C. § 636(b)(1);
SEC v. CMKMDiamonds, Inc., 729 F.3d 1248, 1259-60 (9th Cir. 2013). The
district judge properly reviewed the F&R and plaintiffs objections de novo. 28
U.S.C. § 636(b)(1). None of plaintiff s statements, even if taken as true, plausibly
allege judicial misconduct. Clemens v. U.S. Dist. Ct., 428 F.3d 1175, 1178-80 (9th
Cir. 2005) (setting forth the standard).
The district court did not abuse its broad discretion by denying counsel’s
sixth extension of time for discovery after ordering that no further extensions of
time would be allowed absent good cause because the case had been pending
almost two years. Nor did the court abuse its discretion by later deferring

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
2

additional discovery until after the court ruled on the motion to dismiss the
amended complaint. Plaintiff had ample time to conduct discovery while he was
represented by counsel. Cornwell v. Electra Cent. Credit Union, 439 F.3d 1018,
1027 (9th Cir. 2006) (setting forth the clear abuse of discretion standard of
review); Nascimento v. Dummer, 508 F.3d 905, 909 (9th Cir. 2007) (holding that
the district court did not abuse its discretion by denying a motion to extend the
discovery deadline when the party had “nearly five months to conduct discovery”).
The district court did not abuse its discretion by requiring plaintiff to provide
a privilege log when he requested that defense counsel return documents produced
by plaintiffs attorney during discovery. Burlington N. & Santa Fe Ry. Co. v. U.S.
Dist. Ct., 408 F.3d 1142, 1149 (9th Cir. 2005) (holding “that boilerplate objections
or blanket refusals inserted into a response to a Rule 34 request for production of
documents are insufficient to assert a privilege”); Dole v. Milonas, 889 F.2d 885,
890 (9th Cir. 1989) (recognizing that “the district court may adopt the ‘privilege
log’ approach”).
The district court did not abuse its discretion by denying plaintiffs motion
to sanction counsel. Patelco Credit Union v. Sahni, 262 F.3d 897, 912-13 (9th Cir.
2001) (setting forth the standard of review). Neither the production of documents
by plaintiffs counsel during discovery nor the fact that counsel conferred
3

regarding discovery constitutes wrongdoing or criminal conduct. There is no
evidence of a conspiracy or any conduct that would warrant sanctions. Moreover,
defense counsel offered to destroy or return to plaintiff any documents that
plaintiff identified as privileged. Nor did the district court err by denying
plaintiffs motion for an interlocutory appeal pursuant to 28 U.S.C. § 1292(b).
Couch v. Telescope, Inc., 611 F.3d 629, 633 (9th Cir. 2010) (setting for the §
1292(b) elements). This court similarly denied plaintiff permission to appeal when
he raised most of the same issues in 2018. Brooks v. U.S. Dist. Ct., No. 17-73242
(9th Cir. Mar. 1, 2018) (Order).
The district court acted well within its discretion when it reasonably granted
a 60-day extension of time for plaintiff to respond to the motion to dismiss and
indicated that no further extensions would be granted because the case had been
pending three years. Ahanchian v. Xenon Pictures, Inc., 624 F.3d 1253, 1258 (9th
Cir. 2010) (setting forth the standard of review). Similarly, the magistrate judge
properly ordered that objections to the F&R be filed by the statutory deadline for
objections set forth in 28 U.S.C. § 636(b)(1).
The district court did not abuse its discretion by holding that plaintiff had
not established exceptional circumstances that would require appointment of
counsel. Plaintiff had previously litigated at least two federal lawsuits against the
4

defendant, had been represented throughout most of the lawsuit, was generally
familiar with the rules, had already responded to the motion to dismiss, and had
drafted the amended complaint with the assistance of pro bono counsel. Palmer v.
Valdez, 560 F.3d 965, 970 (9th Cir. 2009) (setting forth the standard of review and
exceptional circumstances test).
The district court did not abuse its discretion when it sealed only the medical
records attached to plaintiff s objections. Plaintiff gave no compelling reasons for
sealing the remainder of the objections. Ctr. for Auto Safety v. Chrysler Grp., LLC,
809 F.3d 1092, 1096-97 (9th Cir. 2016) (holding that we review for an abuse of
discretion and that a court may seal records only for “a compelling reason”).
Contrary to plaintiff s claim, the defendant properly filed its corporate
disclosure statements.
Plaintiff waived specific challenges to the dismissal of his claims in his
opening brief. Frank v. Schultz, 808 F.3d 762, 763 n.3 (9th Cir. 2015) (per
curiam). In any event, the district court properly dismissed the amended complaint
for failure to state a claim. Plaintiff failed to state a Sarbanes-Oxley whistle
blower claim because he failed to allege that he worked for a publically traded
company or a subcontractor of a publically traded company. Lawson v. FMR LLC,

5

571 U.S. 429, 432-33 (2014) (holding that Sarbanes-Oxley protects employees of
publically traded companies and private contractors of those public companies).
The Privacy Act whistle blower claim was properly dismissed because he failed to
allege that his employer was a federal governmental agency. Unt v. Aerospace
Corp., 765 F.2d 1440, 1447 (9th Cir. 1985). The Dodd-Frank claim fails because
plaintiff did not allege that he filed a securities fraud complaint with the SEC
before his termination. Digital Realty Tr., Inc. v. Somers, 138 S. Ct. 767, 778
(2018). Plaintiff has not shown that he can cure these deficiencies by amendment.
The national origin and religious discrimination claims and Affordable Care
Act claims are unexhausted and/or untimely. Shah v. Mt. Zion Hosp. & Med. Ctr.,
642 F.2d 268, 271-72 (9th Cir. 1981) (holding that the district court properly
dismissed race, color, and religious discrimination claims where the plaintiff only
included sex and national origin claims in his administrative complaint); 29 U.S.C.
§ 218c(b)(l); 15 U.S.C. § 2087(b)(1); 29 C.F.R. § 1984.103(d) (requiring that the
complainant file an administrative complaint within 180 days of the violation).
The Oregon whistle blowing claims alleged under sections 659A.199 and
659A.230 of the Oregon Revised Statutes are barred by the statute of limitations.
Or. Rev. Stat. § 659A.875.

6

The defamation claims made in conjunction with plaintiffs employment are
also barred by the statute of limitations. Or. Rev. Stat. § 12.120(2). Plaintiffs
, defamation claims for statements made injudicial and quasi-judicial proceedings
are barred by absolute privilege. Wallulis v. Dymowski, 918 P.2d 755, 761 (Or.
1996) (En Banc).
Plaintiff failed to allege facts to support a prima facie case for the remainder
of his claims. Bell Atl. Corp. v Twombly, 550 U.S. 544, 555 (2007) (holding that a
complaint must allege more than the conclusory elements of the claim). Plaintiff
has not established that these claims could be saved by amendment. The district
court acted well within its discretion by dismissing with prejudice. It had already
granted leave to amend almost three years into the lawsuit and after the discovery
deadline had been extended five times and had expired. World Wide Rush, LLC v.
City ofLos Angeles, 606 F.3d 676, 690 (9th Cir. 2010) (noting that a “district
court’s discretion to deny leave to amend is particularly broad where a plaintiff
previously has amended the complaint”).
We decline to consider arguments and allegations raised for the first time on
appeal. Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009) (per curiam). We
do not consider documents not filed with the district court. Kirshner v. Uniden
Corp. ofAm., 842 F.2d 1074, 1077 (9th Cir. 1988).
7

4

AFFIRMED.

8

November 2, 2020
IN THE
SUPREME COURT OF THE UNITED STATES
MICHAEL T BROOKS
Brooks
vs
US COURT OF APPEALS FOR THE NINTH CIRCUIT CSE #19-35547
Centene Corporation
dba Agate Resources
dba Agate Health Care (aka Agate Healthcare)
dba LIPA (aka/dba Lane Individual Practice Association
# (a^a-dba Lane Independent Physicians Associati on
Trillium Community Health Program
US DISTRICT COURT FOR THE DISTRICT OF OREGON:
: 6:15-cv-00983
Brooks v. Agate Resources, et al
US COURT OF APPEALS FOR THE NINTH CIRCUIT CASE #19-71240
Brooks v US DOL Review Board #2017-0033
US DOL ADMINISTRATIVE REVIEW BOARD CASE #2017-0033
BROOKS v Agate Health Care, appealing
US DOL, ADMINISTRATIVE LAW CASE #2016-SOX-00037
Brooks v Agate Resources
US DOL ADMINISTRATIVE REVIEW BOARD CASE #2019-0078
Brooks v Agate Health Care, appealing
US DOL, ADMINISTRATIVE LAW CASE #2018-SOX-00046
Brooks v Agate Health Care
Respondents
ON PETITION FOR WRIT OF CERTIORARI

Michael T Brooks
32713 Vintage Way
Coburg, Oregon 97408
541-556-6130

Page i of xxi

Writ of Certiorari

TABLE OF CONTENTS
COVER PAGE........................................
TABLE OF CONTENTS........................
QUESTIONS PRESENTED...................
LIST OF PARTIES BY CASE................
Note on assaults for pursuing this case
RELATED CASES.................................
INDEX OF EXHIBITS............................
INDEX TO APPENDIXES.................
TABLE OF AUTHORITIES CITED.......
CASES.........................................
STATUTES AND RULES..... . . . .
OTHER........................................
OPINIONS BELOW...............................
JURISDICTION............................. .
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE.................................................
1. ORGANIZATION OF THIS DOCUMENT....... ...................................
2. CASE BACKGROUND AND ORGANIZATION
I. 19-35547; 6:15-cv-00983-TC/JR/MK/AA
BROOKS EXPERTISE........
.....................................
II. 19-71240..............................................................................................
III. ARB 2019-0078........... .......................................................................
REASONS FOR GRANTING THE PETITION...........................................
CONCLUSION...........
...................................
/

i
li
ill
.Vll

ix
,xi

xii
xiv
xii
xii

xii
Xll

1
2
2
1
..5
7
9
.25
26
26
39
39

16,920 words

Page ii of xxi

Writ of Certiorari

QUESTIONS PRESENTED
1. Can the federal courts ignore the Federal Rules?
Brooks (included with this) was granted in forma pauperis status at the District Court; the
Appeals Court dismissed 19-71240 ignoring that and in violation of FRAP 24. As well as Brooks
records showing he had a choice between Court fees and medication necessary to staying alive.
District Judge Aiken of the Oregon District Court assigned Magistrate Judges in violation of
FRCP 73. Two different Magistrate Judges with conflicts of interest were assigned by Judge
Aiken ignored Roell et al. v. Withrow, No. 02-69 (2003). Judge Aiken retaliated against Brooks
for opposing those appointments and dismissed his wrongful termination case.
2. Are the federal courts subject to the Rehabilitation Act and the American’s With
Disabilities Act and the ADAAA extensions?
Brooks wrote a request for a stay while he recovered from a seven hour long heart surgery on
January 31, 2020. Instead of granting that, the Court issued multiple Orders and a team of three
defense counselors filed motions; more than 700 pages of documents and 30+ motions, with the
Courts all piling on with Orders.
* The Court denied counsel to Brooks who is paralyzed on the left side and has had
three major surgeries in the last 18 months - cancer, upper spine, and heart. Brooks
cannot sit up for more than 10 minutes, walk, or even sleep (his swallow reflex is
gone.
Brooks was terminated by his employer after the cancer diagnosis and the spinal
injury result from an on the job accident. The employer cancelled Brooks medical
insurance, refused to even offer Cobra, literally tore up requests for Workman’s
Compensation medical for on the job injuries (detached retina, broken foot, lower back
herniated disks). Those are STILL without necessary care.
Brooks’s former employer controls “Authorization Approvals” in Oregon and
denied Brooks an MRI and treatment for 14 months causing spinal compression nerve
damage to reflexes and Brooks’ heart. Brooks cannot sleep laying down without
choking from an impaired swallow reflex, is paralyzed on the left side cannot move his
neck because four disks and two vertebrae were destroyed.
As a result of a tom spinal sheath (Mylin Sheath) is suffering from the onset of
MS:
... in MS, the sheath covering nerve fibers in the brain and spinal cord becomes
damaged, slowing or blocking electrical signals from reaching the eyes, muscles
and other parts of the body. This sheath is called myelin... Although several
treatments and medications alleviate the symptoms ofMS, there is no cure.
"There are no drugs available today that will re-myelinate the de-myelinated
axons and nerve fibers, and ours does that, "said senior author Tom Scanlan,
PhD., professor ofphysiology and pharmacology in the OHSU School of
Medicine.

Page iii of xxi

Writ of Certiorari

4. Has a whistleblower filed a timely complaint if he files with state agencies having
contracts with and acting as a federal agents for the EEOC and OSHA?
Brooks filed whistleblower retaliation claims against his employer for race, national origin, age,
cost and disability based discrimination patient profiling, medical redlining. The US Department
of Labor, in an email, tells Brooks to file with Oregon OSHA. Prior to being terminated, state
agents working for Oregon OSHA tell Brooks that they pass these cases to Oregon Bureau of
Labor and Industries (BOLI) which has sole jurisdiction to file and cross file those claims.
In another.recorded telephone call with BOLI attorney Jeremy Wolff, Brooks is told
Oregon has filed complaints. Brooks signs another complaint with additional charges at BOLI
headquarters on March 6,2014, twenty days before the filing deadline for additional charges.
BOLI held did not investigate or pursue Brooks’ case for a year. Then they administratively
dismissed it when Brooks filed suit in federal court for misrepresentation and fraud
BOLI had not filed those complaints and withheld that information from Brooks for a
year. The forged a complaint form was sent to Petition after December 1, 2014, (it arrived on
December 5) that does not resemble the charge sheet Jeremy Wolff is heard reading from in the
recording on March 3, 2014. OSHA is claiming Brooks was late in filing because he filed with
the wrong agency.

There are three cases, here, that are one case. They were obfuscated to hide the simple issue
embodied in question #4. This is a simple case of a corrupt Oregon agency protecting
themselves and a state contractor engaged in fraud, selling medical records, selling records
of State Mental Hospital Patients, HIV and STD laboratory reports, counseling records
and more. This is so bad and so extensive that is unbelievable. So Brooks is providing those
records to the Court.

LIST OF PARTIES
All parties do not appear in the caption of the case on the cover page. A list of all possible parti
les
to the proceeding in the court whose judgment is the subject of this petition is as follows.
Brooks does not believe all of these parties receive these and Brooks does not have the funds to
serve all of these parties in any event. Brooks is sending these to the parties in bold, addressed
together as written here. Brooks believes that the US Department of Labor and the state of
Oregon should be criminally indicted in this matter. Brooks has that in his Conclusion.
NINTH CIRCUIT 19-35547 (anneal of 6;15-cv-00983-TC/JR/MK7A
Sidney R. Thomas
William C. Canby. Jr.
Ronald M. Gould
Case #19-35547
US Court Ninth Circuit Court of Appeals
THE JAMES R. BROWNING COURTHOUSE
95 7TH STREET,

Page iv of xxi

Writ of Certiorari

■v«ftioc;fc Activity in Case 6:15-cv-00983-MK Brooks v. Agate Resources Mandate
ie- November 30, 2020 at 1:52 PM
'Hr :v'-Hi ■.

™J

meSSage ■«*— by the CM/ECF system. Please DO NOT RESPOND to Shis

e-maii because the

‘"NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of record and
, download a
a transcript, the free copy and 30

page limit do not apply.
U.S. District Court
District of Oregon

Notice of Electronic Filing
The following transaction was entered on 11/30/2020 at 1:51 PM PST and filed on 11/27/2020

Case Name:
Brooks v. Agate Resources
Case Number:
Filer:
WARNING: CASE CLOSED on 05/14/2019
Document Number: 228
Docket Text:

re Notice of

6:15-cv-00983-MK Notice has been electronically mailed to:
Michael T Brooks

mibrooks@mac.com

Reilley D. Keating

reilley.keating@stoel.com, dmholland@stoel.com, docketclerk@stoel.com

Stephen H. Galloway

shgalloway@stoel.com, dmholland@stoel.com, docketclerk@stoel.com

6:15-cv-00983-MK Notice will not be electronically mailed to:
The following document(s) are associated with this transaction:
Document descrlption:Main Document
Original filename:Not Available
Electronic document Stamp:
ordStamP-ID=875559790 [Date=11/30/2020] [FileNumber=7229661-0]
[2ddfcdec602cb6271c6669e0906ba03fb7d8e9d27518731323bf94b8d24a4d0f63747
9cad7ad894d683a77cf67cd55b3923a676091 d4ffc985d10ed9a8bbc139]]

iSSSSrtSSS^S*B,00ks *

To: 'Vbcr'y

Re“USCA “•"'—'Opw.n

This is an automatic e-mail
mail box is unattended.
is required by law or directed by the S.PaSer a^ess^feLs aomv toaN oth?

SS SSS SES£ d“""8 ”8 8rM vlewln8-

a" d?CUme"t?,Med eleet«>nically, if receipt

^.•SS^'SSSJ^Si
U.S. District Court
District of Oregon

Notice of Electronic Filing
The following transaction was entered on 11/5/2020 at 3:37 PM PST and filed

Case Name:
Brooks v. Agate Resources
Case Number:
6:15-CV-009B3-MK
Filer:
WARNING: CASE CLOSED on 05/14/2019
Document Number: 226

on 11/5/2020

Docket Text:

Dte?ric“2^:fXFF!RrM^DSfl5dTreUit'

" N°''“ A"’“' ^ The ««**>" —

6:15-cv-00983-MK Notice has been electronically mailed to:
Michael T Brooks

mibrooks@mac.com

Reilley D. Keating

reilley.keating@stoel.com, dmholland@stoel.com, docketclerk@stoel.com

Stephen H. Galloway

shgalloway@stoel.com, dmholland@stoel.com, docketclerk@stoel.com

6:15-cv-00983-MK Notice will not be electronically mailed to:
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:Not Available
Electronic document Stamp:

From:
Subject:
Date:
To:

info@orcf.uscouris.gov
Activity in Case 6:15-cv-00983-MK Brooks v. Agate Resources Mandate
November 30, 2020 at 1:52 PM
nobody@ord uscourts.gov

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to this e-mail because the
mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of record and
parties in a case (including pro se litigants) to receive one free electronic copy of all documents filed electronically, if receipt
is required by law or directed by the filer. PACER access fees apply to all other users. To avoid later charges, download a
copy of each document during this first viewing. However, if the referenced document is a transcript, the free copy and 30
page limit do not apply.
U.S. District Court
District of Oregon

Notice of Electronic Filing
The following transaction was entered on 11/30/2020 at 1:51 PM PST and filed on 11/27/2020

Case Name:
Brooks v. Agate Resources
Case Number:
6:15-cv-Q0983-MK
Filer:
WARNING: CASE CLOSED on 05/14/2019
Document Number: 228
Docket Text:

MANDATE Issued regarding USCA Memorandum [226] for the 9th Circuit, USCA #19-35547, re Notice of
Appeal [216], The decision of the District Court is: AFFIRMED, (bd)
6:15-cv-00983-MK Notice has been electronically mailed to:
Michael T Brooks

mibrooks@mac.com

Reilley D. Keating

reilley.keating@stoel.com, dmholland@stoel.com, docketclerk@stoel.com

Stephen H. Galloway

shgalloway@stoel.com, dmholland@stoel.com, docketclerk@stoel.com

6:15-cv-00983-MK Notice will not be electronically mailed to:
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:Not Available
Electronic document Stamp:
[STAMP ordStampJD=875559790 [Date=11/30/2020] [FileNumber=7229661-0]
[2ddfcdec602cb6271 C6669e0906ba03fb7d8e9d27518731323bf94b8d24a4d0f63747
9cad7ad894d683a77cf67cd55b3923a676091 d4ffc985d10ed9a8bbc139]]

From:
Subject:
Date:
To:

mfo@ord.uscourts.gov
Activity in Case 6:15-cv-00983-MK Brooks v. Agate Resources USCA Memorandum/Opinion
November 5, 2020 at 3:39 PM
nobodyts'oi ci uscourts.gov

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to this e-mail because the
mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of record and
parties in a case (including pro se litigants) to receive one free electronic copy of all documents filed electronically, if receipt
is required by law or directed by the filer. PACER access fees apply to all other users. To avoid later charges, download a
copy of each document during this first viewing. However, if the referenced document is a transcript, the free copy and 30
page limit do not apply.
U.S. District Court
District of Oregon

Notice of Electronic Filing
The following transaction was entered on 11/5/2020 at 3:37 PM PST and filed on 11/5/2020

Case Name:
Brooks v. Agate Resources
Case Number:
6:15-cv-00983-MK
Filer:
WARNING: CASE CLOSED on 05/14/2019
Document Number: 226
Docket Text:

USCA Memorandum for the 9th Circuit, USCA #19-35547, re Notice of Appeal [216]. The decision of the
District Court is: AFFIRMED, (bd)
6:15-cv-00983-MK Notice has been electronically mailed to:
Michael T Brooks

mibrooks@mac.com

Reilley D. Keating

reilley.keating@stoel.com, dmholland@stoel.com, docketclerk@stoel.com

Stephen H. Galloway

shgalloway@stoel.com, dmholland@stoel.com, docketclerk@stoel.com

6:15-cv-00983-MK Notice will not be electronically mailed to:
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:Not Available
Electronic document Stamp:
[STAMP ordStamp_ID=875559790 [Date=11/5/2020] [FileNumber=7204988-0] [
25e328037596b51 C9581 c8540e117bb0b726b27976c5ba8c7d8dc1 ffa7eb94d06afaf0
37433f964fc27df35d8e64aa84cb318808d0a6f4c98d264790da6389a9]]

. .
Office of the Clerk
lmted States Court of Appeals for the Ninth Ci
rcuit
Post Office Box 193939
San Francisco. California 94119-3939
415-355-8000

fifef
Molly C. Dwver
Clerk of Court

November 12, 2019
To:

Michael T. Brooks

From:

Molly C. Dwyer, Clerk of Coun
By: Khanh Thai, Deputy Clerk

Re:

Receipt of a Deficient Brief of Appellants
USCA No. 19-35547

on 1 1/07-2019

Michael Brooks v. Agate Resour ces. Inc.

The opening brief cannot be tiled for the following reason(s):

motion /
15? foIlou ing action has been taken with
office:

being corrected.

respect to the brief received in this

"me Jor.filing the brief while the defect is

9th C-ir. R. 42-J provides:

^^ZseM^r'l n’C'°ni pay "K d0Cke,Jee- fUe •
»■*

take

disciplinan • and monetai
sanctions on rhos
the appeal.
e 1 expansible for prosecution of

notice you must file a motion for |„v,'Zn L°n*cx,on"?thin 14 days of this
Extensions of time for filmy brief
^
' c a ate brlet- See 9th Cir. R. 3 ] -3.3 re:

i

Case 6.15-CV-00933-41X

June 25,2019

Fnfl26JUH-19ii«6uaMBE

Michael T. Brooks
mibrooks@mac.com
32713 Vintage Way
'
Coburg, Oregon 97408
Telephone: 541-556-6130
Pro Se

UNITED STATES DISTRICT COURT
DISTRICT OF OREGON

Michael T. Brooks
Petitioner.

v.,

Agate Resources, Inc.,
dba Trillium Community Health Plan, Inc.
etal
United States District Court
For The District of Oregon
Defendants

APPEAL OF COURT ORDER TO DISMISS CASE 6:15-CV-00983-MK
TO THE U.S. COURT OF APPEALS FOR THE NINTH CIRCUIT
MAGISTRATE JUDGE MUSTAFA KASUBHAI AND/OR DISTRICT JUDGE ANN L AIKEN
PRESIDING
RULE 60AND RULE 59 APPEAL
MOTION FOR A MISTRIAL AND NEW TRIAL AND VENUE
BASED ON COURT AND DEFENDANT MISCONDUCT

This case is ultimately about the Oregon District Court’s denial of due process and
retaliation against a disabled Plaintiff for asserting his rights. The District Court imposed
Magistrate Judge’s on this case, to which Plaintiff objected in a timely and legal manner. The

■

Court ignored those objections, simply did not even acknowledge receiving them. Plaintiff
repeated those objections and was ignored. Plaintiff resisted being bullied and ignored and
Brooks; 6:15-cv-000983-MK

Page 1 of 30

was

Appeal - June 25, 2019

f

Case 6.X5<v-cesS3>lVX

•f.-.

en­

forced to publicly state his refusal to give consent to Magistrate Judges that he knew had
conflicts of interest. The District Court, for that, retaliated against Plaintiff, created an
increasingly hostile environment, and ultimately retaliated against Plaintiff by dismissing this
case for persisting.
There are other wrong doings, including.judicial misconduct, inappropriate
communications with defense, and egregious abuse of discretion. This Appeal only discusses
some of those. Plaintiff is prepared to cooperate with the U.S. Court of Appeals For The Ninth
Circuit or the U.S. Supreme Court in investigating this matter.
INTRODUCTION
Plaintiff is also filing this appeal under Rule 60 and Rule 59.
Plaintiff, acting on advise of the Court of Appeals, filed a Motion To Reconsider to
provide the District Court with an Opportunity to fix its errors on May 24,2019. It has been a
full month and the District Court has not availed itself of the opportunity to fix its errors nor even
answered Plaintiff’s Motion, so Plaintiff is filing an Appeal with the U.S. Court of Appeals For '
The Ninth Circuit.
The District Court dismissed, with prejudice, and closed his case on, apparently, May 17,
2019. [Exhibit 1, Judges Order and Judgement; Exhibit 2 court docket and phone records
of calls to Ninth Circuit] This appears to be retaliation for objecting to the Court’s imposing a
biased Magistrate Judge on this case. Plaintiff pointed out other errors and Filed A Motion For a
Mistrial (new trial) under Rule 59(d) and (e).
Plaintiff telephoned the Ninth Circuit Court ofAppeals on May 20,2019, (4:13 p.m.) and
told them what he proposed doing, to make sure filing deadlines being missed or some legal
technicality were not missed. Plaintiff deliberately wrote a Motion To Reconsider, to give the
District Court a Chance to fix its errors, and because he is actively fearful of vengeful actions by
District Court judges. Plaintiff’s Motion To Reconsider was filed on May 24,2019, [Exhibit 3].
The Court did not answer that motion and Plaintiff telephoned the Court Clerk at the
Ninth Circuit Court of Appeals on June 6,2019, (10:28 a.m. -10 minutes; 4:09 p.m. - 3 minutes;
4:13 p.m. - 20 minutes). The Court Clerk advised giving the Court time to answer.
Brooks; 6:15-cv-000983-MK

Page 2 of 30

Appeal - June 25, 2019

Case t'J5-cv-009S3-fV":<

-

■ C.<

:

'

On June 7,2019, defense counsel filed a “Defendant's Response To Plaintiff’s Motion To
Reconsider and Motion For Mistrial” [Exhibit 4].
The District Court refused to appoint counsel for a disabled Plaintiff. Plaintiff was
disabled from job-related injuries that his employer had retaliated

against Plaintiff by
withholding Workets Compensation. In fid. Plaintiff had been tenninated two days after '
demanding Worker’s Compensation and having been forced to go to his doctor and get the
results from an MRI and provide it to Trillium executives.
The Court, in full knowledge, with doctors letters and medical reports, refused to grant
accommodations and required Plaintiff to stand doing days of scanning that resulted in back and
neck injuries.
Worse, Defendant was in charge ofAuthorization Management for Plaintiff’s insurer and
demed medical imagining and care, ignored repeated appeals by doctors, which resulted in
Plaintiff’s hospitalization, major surgery, a heart attack on the operating table, and continuing
health issues. The Court knew that and refused to intervene because it was

concerned with

dismissing this case least it harm state officials.
At one point, Plaintiff was not able to even sit up. The Court refused to appoint counsel.
With the help of friends Plaintiff filed repeated motion about this with the District Court. Then,
an unlawfully assigned Judge, Mustafa Kasubhai criticized Plaintiff for

not being physically
capable of answering a 55 page long document from Kasubhai filled with factual errors,
defamation.

BACKGROUND, WHTSTTEBUOWTNr:
Plaintiff was the Data Warehouse Administrator for an Oregon Health Plan (OHP)
contractor that had engaged in massive fraud, medical redlining, patient profilings, secretly sold
patient medical records and laboratory test results (including HIV, STD, genetic test, and cancer
test results) to employers, prospective employers and financial services businesses.
Plaintiff reported that to the state, both to Secretary of State Brown and the Oregon
Attorney General Rosenblum, who failed to take any action to protect those patients. Plaintiff
discovered that state officials engaged in trying to covering that up. When the state discovered
Brooks; 6:15-cv-000983-MK

Page 3 of 30

Appeal - June 25, 2019

Case 6 15-C-/-00983-MK.

/

ri

that Plaintiff had records of this and had provided them to federal investigators, the state illegally
tried to identify the investigators, resorted to trying to pass of state employees as federal agents
to get copies of that evidence, spied on Plaintiff and his family (including wire taps, IMSI traps,
WIFI intrusions, physical surveillance, and more).
Plaintiff turned over evidence to federal investigators and that resulted in the resignation
of Governor Kitzhaber and an expanding investigation of state wrongdoing. That invited further
retaliation of Plaintiff, which Plaintiff wrong about when he first filed this suit. Plaintiff asked
that the state be included because the state has been deeply involved in patient profiling

and
redlining of Hispanic and foster children. State officials have accepted bribes and favors and
those same state officials have misdirected federal money and permitted millions of dollars to be
outright stolen by favored state contractors.
Plaintiff was upset by Defendant’s racial profiling of patients, continuing sale of
employee-patient and their dependent medical records and laboratory test results (now expanded
to 27 states), medical redlining, generating fraudulent claims, double billing fraud, and other
wrong doing. Plaintiff was especially upset by Trillium’s providing costly patient records to
doctors resulting in those patients being dropped by doctors. That meant there was no one to
monitor hypertension medication, even the toxicity of supplements, and the inability of those
patients to get pain relief, anti-anxiety, sleep, or even muscle relaxants. Trillium lied on federal
reports about this. When Plaintiff reported those falsified federal reports, Lane County used a
low income housing grant to build and staff two temporary clinics for this patients to bail out
Tnllium Community Health Plan, a private for profit company. The doctors at those clinics had
as many as 8000 patients assigned to them. This was plainly a brazen political favor for a
campaign contributor” and employer of county officials spouses.
Plaintiff stood up at a staff meeting on October 3,2012, and spoke out about Trillium’s
unlawful and unethical actions. Plaintiff was yelled at by Trillium’s COO, demoted from his
position, removed from IT, had his desk moved and was subjected to degrading sexual

, racial,

age, and disability taunts.
Plaintiff did not know it at the time, but Defendant hacked into his private-home MSN
email and cloud account and read emails and documents pertaining to his whistleblowing.
Brooks; 6:15-cv-000983-MK

Page 4 of 30

Appeal- June25, 2019

r

-

; ••

R«oris show this as primarily being in August 2013 when lawyers for a former employer were
emailing plaintiff about being an expert witness.
Plaintiff was the inventor of technology that employer had patented and was asking him
to defend that patent as an expert witness. It was not evident in those private emails, however,
that this was what he was to be an expert witness for. All of this begs the question, what was
Trillium and their counsel doing hacking into Plaintiff’s private email account? How did they
even know the existence of that account, much less the name and password to access it?
Nonetheless, they not only did that, they were so brazen about it that they used computers

on the

Trillium network to do that and left IP addresses and computer signatures behind.
Trillium even used professional hacking outfit to attach spyware to an email they sent
him. Plaintiff has that email and the spyware attachment.

BACKGROUND, on the .tor nv.TTrenrs lurmrAT
Plaintiff had several on the job injuries in 2012 that are related. He suffered a detached
retina on April 2,2012, resulting from working in an unlighted office over a long weekend,
without sleep. Plaintiff had three large tears and a detached retina to his right eye. That resulted
in three surgeries that cost Plaintiff 50% of the vision in that eye. A fourth surgery was scheduled
when he was terminated.
Plaintiff developed what doctors thought was Epstein-Bair. That caused kidney disease
and bleeding. Doctors originally thought this might be due to bladder or prostate cancer, but the
CT scan and tests-for that revealed a growth in the lower lobe of Plaintiff’s right lung. This took
place in September and October 2012. The mass in Plaintifflung was discovered on October 18,
2012.
Plaintiff had a broken right foot on November 23,2013, that was subsequently crushed
when a lathe fell on it in February 2013. That foot would not heal and a bone spur in a joint
caused swelling. Plaintiff was continually in cast and on crutches or in a wheelchair from
November 25,2012, through June 2014.
On August 19, 2013, in spite of being on crutches and wearing a cast, Plaintiff was told to
come to work at 6:00 a.m. and do custodial work - remove old charts, graphs, and software
diagrams from his cubicle wall, collect old papers and books and “junk”; load them onto a steel
Brooks; 6:15-cv-000983-MK

Page 5 of 30

Appeal - June 25, 2019

Case 6'Ir--C' -90983-MK

i

r t.;:i < .:'0/

1C

mediacart and transport them to an outside dumpster. Co-workers were prohibited from helping

In the process the media cart caught on the backdoor threshold, fell

and broke Plaintiff’s
left foot and further damaged his right foot MRI’s were scheduled for August 28,2018. The
results of those and nuclear scan were telephoned to Plaintiff on September 9,2013.
Defendant had never paid for a dime for the detached retina and had prohibited Plaintiff
from filing for Workers Comp. This time, Plaintiff obtained a form 801,

filled it out, and
demanded Worker’s Comp. Plaintiff recalls submitting that form on September 11
, 2013, to
Human Resources Director Nanette Woods and Trillium’s COO Patrice Koijenek. They told
Plaintiff to leave the office and not return with
out a copy of the MRI and doctors report. Plaintiff
got copies and submitted them to Woods and Koijenek on Thursday, September 12
,2013.
Plaintiff was terminated the following Monday morning, at 8:00 a.m.

DISTRICT COURT AND INJURIES. DENIAL OF DUE PRnrir.SK
Plaintiff is severely disabled, in forma pauperis, and Pro Se. Plaintiff had surgery on his
neck on January 17,2019, where four disks were removed, because they had ruptured and
deteriorated, resulting in paralysis to Plaintiff’s left side.
Plaintiff’s insurance is through his wife’s job as a kindergarten teacher. That i
insurance, as
with all public employees in Oregon, is through the Oregon Health Plan. Plaintiff’s insurer was
MODA Health.
MODA Health used AIM Specialty Health for Authorization Benefits Management
(ABM) until March 31,2017. Thereafter they used eviCore,' however eviCore was i
involved with
service denials as of January 1,2018. Authorization Benefits Management is where a third party
business looks at a patients medical records and decides whether to approve an authorization or
referral for services, approve or deny a prescription drug or medical appliance. Beyond normal
medical care by a patient’s primary care doctor, urgent care or emergency care, the ABM is the
gatekeeper for all medical services.
With MODA this tamed out to be the Defendant being denied critical medical services
by Tnlkiun Community Health Plan, hiding behind the name eviCore/CareCore. MODA
Brooks; 6:15-cv-000983-MK

Page 6 of 30

, who

Appeal - June 25, 2019

'■-ase- c 15-C’

■J983-?vV:

has the same lawyers as Trillium, not only hid that fact, they gave attorney’s copies of 45 CFR §
164.524 demands for who accessed Plaintiff’s records. Trillium's attorneys in this case literally
wrote responses and refused to honor a federally required record request The District Court,
refused to enforce that federal requirement, too.
Plaintiff had been injured between October 22,2017, and November 15,2017, as a direct
result of District Court ordered tasks. Doctors thought Plaintiff had a pulled

muscle and ordered
him into physical therapy. Plaintiff slowly got worse and doctors requested an MRI for Plaintiff’s
lower back on December 15,2017. That showed new (within the last six weeks) dam

age,
including several new ruptured disks in Plaintiff’s lower back. [Exhibit 5]. No one expected that.
Thereafter, MODA-Trillium denied any and all authorizations or referrals. Except for already
approved physical therapy (which was not renewed by Trillium) and work with a rehabilitation
doctor, all authorization requests were denied. This went on until August, after Plaintiff went to
the US Department of Labor, OSHA, and they issued a letter of right to sue on July 18,2018.
Trillium received that letter and issued an approval for that MRI on July 25,2018, under their
eviCore name. This needs noting. Only Trillium received that right to sue notice. Plaintiff and his
doctors had given up on even trying to get appeals with MODA. Even if they were merely acting
as a contractor for eviCore there was insufficient time for Trillium to contact MODA, who would
contact eviCore and approve that authorization. This was Trillium, acting directly as eviCore,
likely on advise of their shared counsel.
Defendant, Plaintiff’s former employer, denied medical treatment and imagining for over
a year, which resulted in those injuries being much worse than they should have been. Plaintiff’s
deteriorated health resulted in a “cardiac episode” (heart attack) on the operating tabl

e on
January 17,2019, a clot, and a whole host of other problems. Subsequently, Plaintiff has had
more than 60 episode of atrial flutter and atrial fibrillation. Plaintiff discovered that PHI

was
“shared” by Defendant with their counsel and because of. that is providing medical records to this
Court. [Exhibit 6, neck; 7, chart notes; 8, cardiac records; 9, cancer], These records are not
provided to gamer sympathy. They are in proof of Plaintiff’s contention that the District Court
engaged in such egregious misconduct that an investigation and sanctions are in order. They
show that Plaintiff was injured by the District Court, was denied accommodations, was treated
Brooks; 6:15-cv-000983-MK

Page 7 of 30

Appeal - June 25, 2019

. Case 5'15-c.‘.-00S83-M>

abominably by a Court that was in an unseemly hurry to dismiss

a case and spare their friends in
state government from being named as parties in a proceeding that proves criminal conduct by
the state and state contractors.
The District Court has taken advantage of a disabled plaintiff. The District Judge
dismissed and closed the case three days before posting or mailing it to Plaintiff, who lives “two
to three mail delivery days” away from Eugene in the small town of Coburg. Plaintiff, even then,
!

was able to answer her in a timely manner with a polite Motion To Reconsider, granting the
District Court the ability to fix its errors. The District Court, instead, has refused to take
advantage of that opportunity by ignoring yet another Motion.
Plaintiff does not trust the District Court and is sending a copy of this Appeal and exhibits
directly to the Ninth Circuit Court of Appeals and to Clerk’s Office of the U.S.

Supreme Court.
Plaintiff is being retaliated against for being a Christian and blowing the whistle on corrupt
Democratic Party officials in Oregon.
Judge Aiken blocked 84,318 patients from access to justice, whose records had been
unlawfully sold by Trillium. Those patients were harmed by being laid off from jobs, not getting
hired, being denied loans and credit, denied medical care, because Judge Aiken granted a
protective order for Trillium essentially claiming that fraud was a trade secretThen, after Dugan
stole those records and others, the Court permitted Stoel Rives to be keep and possess the stolen
records in violation of her Protective Order!
Dennis Richardson, the recently Secretary of State who passed away, had seen the
records of wrong doing by Trillium, had them forensically audited, and independently verified. •
He saw criminal violations of state law and spoke with the Oregon Attorney General who
promised to prosecute Trillium executives and state officials involved in that wrongdoing.
Secretary Richardson developed brain cancer and he Oregon Department of Justice buried and
covered up that evidence and did nothing.
The current situation in this Court, with judges having connections with the Oregon
Department of Justice officials that spoke with Mr. Richardson, is unacceptable. In addition to
low wage workers, Trillium targeted foster children, involuntarily committed patients at the state
mental hospital, inmates in the state’s prison system and and their families, undocumented
Brooks; 6:15-cv-000983-MK

Page 8 of 30

Appeal - June 25, 2019

workers and so called anchor babies and their parents and siblings. This is awful. Plaintiff blew
the whistle on this and was fired because the

state protected the evil men and women who
profiled these human beings, denied them care, kicked them to the curb.
Plaintiff asks the Court to make note of the injury date on the chart notes

- October 22
through November 15,2018. Plaintiff can provide dozens of records showing the date of the
neck and back injuries corresponding with the District Court’s refusal to provide
accommodations and the District Court’s assignment of tasks that it

was warned by doctors and

Plaintiff would result in further injuries. Those

are, to put it bluntly, ADA and Rehabilitation Act
violations and the District Court is financial responsible for the expenses incurred"as a result of
its negligence. In spite of claims to the contrary, the federal courts are not immune to the
-

statutory requirements of Congress. Article III of the Constitution is quite clear that the District
Courts are the creation of and subject to statutory law. The ADA and Rehabilitation Act both
explicitly apply to any entity receiving federal money. Congress did not exempt the federal
courts from that requirement and the U.S. Supreme Court and those “Article III inferior courts”
would not have authority to grant any such exemption to themselves.
The Oregon District Court violated Plaintiff’s Due Process rights. Plaintiff asked for
either additional time in October 2017 due to disabilities and asked for the appointment of
counsel after his injuries as of November 2017. The Court refused both requests in direct
violation of Supreme Court rulings with regards to Due Process. The Court, also prevented
plaintiff, under threat of sanctions, from filing an Interlocutory Appeal of their Court’s

excesses
Denying Pro Bono counsel to a Plaintiff that cannot even sit up for 10 to 20 minutes and

favoring defense counsel whose firm the judges and court officers have personal relations with is
outlandish, but not the worst thing judges have done in this case.
Treating a disabled plaintiff with contempt by ridiculing him (the court clerk ridiculed
plaintiff's hoarseness when speaking after the surgery of January 17,2019, damaged nerves that
prevent food and liquids swallowed from going into the lungs. The Magistrate Judge made fun of
a photograph showing what happened to Plaintiff’s foot when he stood scanning for 90 minutes the left foot turned blue colored and swelled to double normal size. Courts, judges,

are not

supposed to act this way.
Brooks; 6:15-cv-000983-MK

Page 9 of 30

Appeal - June 25, 2019

Case 6:15-cy-:>0983-?v-K

• • -• “..1*.
. «./. -O'... . .

'V

-

The U.S. Supreme Court ruled that a court violates due process rights by failing to
provide counsel or reasonable alternative procedural safeguards. Citing Matthews v.
Eldridge, 424 U.S. 319,335, 96 S.Ct. 893,47 L.Ed.2d 18 (1976), the Supreme Court used
several factors to determine what specific safeguards are required by the Due Process Cla
use.
These include:
•

the nature of the private interest’that will be affected;
the comparative risk of an erroneous deprivation of that interest with and without
additional or substitute procedural safeguards; and,
the nature and magnitude of any countervailing interest in not providing additional or
substituted procedural requirements.
The Turner case involved child support and the possibility of imprisonment, but the

Supreme Court explicitly does not limit its decision to cases where incarceration are an issue.
I

Specifically, the Court held that its ruling applies to any case in which there is a risk of erroneous
deprivation of significant rights. As a practical matter, the Court held that Judges

are required to
appoint an attorney "whenever it is apparent that due process rights cannot be adequately
preserved without an attorney”. This is not discretionary. But this is what the District Court did
in the face of repeated pleas for assistance.
There is hardly a clearer case of animus than when an in forma pauperis Pro Se Plaintiff,
who cannot sit in a chair for more than 10 to 20 minutes is refused accommodations and
belittled. Provably, the neck injuries were due to Court actions.
One of the cores of this case involves untreated on the job injuries. The Court refused to
provide for accommodations in the face of legal precedent, the Americans With Disabilities Act,
the Rehabilitation Act, and common human decency, and caused further disabilities. Everything
that has taken place in this case since at least October 22,2017, has involved an egregious denial
of due process by the District Court.
The District Court permitted discovery by defense while denying that to plaintiff. The
Court permitted declarations and evidence by defense while denying plaintiff those. Now, with
this Order, the District Court is attempting to' limit the basis for an appeal by scrubbing the
record of declarations, recordings, exhibits of wrong doing, misleading statements, altered
records including altered medical records, and records of criminal conduct by defendants.
Brooks; 6:15-cv-000983-MK

Page 10 of 30

Appeal - June 25, 2019

Case 6‘lb-C- -CC983-MK

: :8s;'; I

^

ii

30

Something to note, too, is that Magistrate Judge Kasubhai refers to Plaintiff having time
to vdte a new amended complaint During that time, from November 15,2017, to December 1,
2018, Plaintiff was paralyzed and being denied

access to medical care by Defendant, something
the District Court both knew of and should have remediated.
On December 1,2018, Plaintiff was
transported to the Emergency Room at PeaceHealth Hospital and, then, admitted directly into the
hospital by doctois to circumvent Defendants denial of services via their contract as the Prior
Authorization Manager for MOD AHealth.
Defendant executives altered medical records at Slocum Orthopedic, where the President
of Trillium was the owner,

m an attempt to muddy Plaintiff’s contention that he had requested
time off for surgery for the on the job injury that led to the neck surgery. In doing so, they
destroyed a record indicating early signs of atrial fibrillation i
in an outpatient surgical record.
This nearly resulted in killing Plaintiff. The District Court was
appraised of that, too.
Doctors were in the middle of operating on Plaintiff’s neck when his heart went into 75
BMP Vehicular / 300 BPM Atrial. The D. Diemer record is of a clot that resulted from blood
pooling in the lower chamber of Plaintiff’s heart. That clot, by an act of God, did not go to
Plaintiff’s brain, lung, or heart where it would end up 95% of the time, resulting

in a stroke.
Again, the District Court was aware of all of this. Plaintiff was bedridden and still unable

to even sleep in a normal bed. Plaintiff provided records of this to the Court in repeated pleas for
the appointment of counsel or accommodations.
Plaintiff was denied Pro Bono counsel or other accommodations by the District Court
even though he has been unable to sit up for more than a few minutes. Plaintiff has only been
able to do filings with the help of volunteers who have helped with these filings.
The District Court harmed Plaintiff on behalf of state officials with whom they h

ave
friendships and personal relations in an unseemly rush to dismiss this case. The District Court
permitted both counsel and Defendant misconduct that not only damaged this case, they made a
mockery of the legal process.
Plaintiff will not hazard to guess if that bias resulted in deliberate or unintentional abuse
of discretion, but the fact of that bias and abuse is beyond doubt and it calls for independent
investigations of the Oregon District Courts.
Brooks; 6:15-cv-000983-MK

Page 11 of 30

Appeal - June 25, 2019

}

Case 6.i5-ev-OOS83-!Ci

The District Court was kept appraised of Plaintiff’s injuries. The Court, in fact, ignored
requests for accommodations, motions to appoint counsel, doctors letters,
and ordered Plaintiff to scan documents and write drafts that caused th

and medical records,

e neck and back injuries in

the medical records provided as exhibits.

The District Cmir By Imnosim
Prejudicial Error

aj

fete Judges Over Plaintiff’s Objections.

Magistrate Judge Kasubhai was the second magistrate judge the District Court attempted
to impose on Plaintiff. Plaintiff had objected to both Magistrate Judges because of conflicts of
interest in their relations with state agents.
In both cases, Plaintiff wrote objections to the Chief Justice of the District Court, Michael
Mosman. In both cases those objections were ignored, which resulted in subsequent written
objections. Those objections were ignored, too. Ignoring Motions they do not like is a bad habit
with this Court.
In her Order To Dismiss 6:15-cv-00983-MK, District Judge Ann Aiken wrote:
the Court ADOPTSMagistrate Judge Kasubhai's F&R (doc. 198) in its entirety.
Accordingly, defendants Motion to Dismiss (doc. 137) is GRANTED, andplaintiffs
Amended Complaint (doc. 135) is dismissed, with prejudice.
[ORDER May 14, 2019, Ann Aiken]
How does an unlawfully appointed Magistrate Judge’s prejudicial writings end up being cited by
a District Judge as reason to dismiss? Magistrate Judge Mustafa Kasubhai

was illegally acting
as the judge and his “Findings and Recommendations” were prejudicial and inadmissible and
unlawful. The District Judge retaliated against Plaintiff for objecting to Judge Kasubhai’s taking
part in this matter at all and for pointing out that the District Court misunderstood Rule 72, Rule
73,and28U.S.C. §636.
Plaintiff was notified that die Court was appointing Magistrate Judge Kasubhai on
September 21,2019, and filed a formal written objection with the Chief Justice of the District
Court on September 30, 2019 [docket #176]. Plaintiff wants it noted that the manner 0f

' '

notification was not in accordance with federal law and Federal Rule requirements.
Plaintiffs Motion to oppose appointment was docketed under seal on October 2,2019.

Brooks; 6:15-cv-000983-MK

Page 12 of 30

Appeal- June25, 2019

!

•■—o.SsB lo.S'D“

;v'iK

The Court completely and totally ignored that opposition. Plaintiff filed a

second and third

objection to Magistrate Judge Kasubhai’s case

assignment which were also ignored. Finally
Plaintiff was forced to file open motions objecting to the District Court’s imposing this
Magistrate Judge’s appointment to this case.
Plaintiff reminded the C ourt that he had objected to the appointment Magistrate Judge
Jolie Russo of March 7,2016. Plaintiff filed a Rule 73 objection of March 10,2016. The Court
did not deem to answer that. Plaintiff filed two other letters objecting to that appointment and
even explained that his objection were due to the Magistrate Judge’s friendship with two Oregon
Assistant Attorney General’s and named them. That objection was never answered.
The failure to answer those objections, and Plaintiff still has copies of them, amounted to
treating Plaintiff with destain. A Court simply is not permitted to run roughshod over the legal
objections of a litigant like the Oregon District Court has done. The District Court’s refusal to
obey the Federal Rules of Civil Procedure were another violation of Plaintiff’s right of Due
Process and an egregious violation of the Federal Rules.
Judge Aiken, in her Order of May 14,2019, noted that Plaintiff had not “given full
consent” . Really? Plaintiff had vigorous opposed the appointment of Judge Kasubhai. Judge
Aiken goes on to write:
The Court notes, however, that the District of Oregon's Local Rules "designates every
Magistrate Judge to conduct all pretrial proceedings authorized by 28 U.S.C. § 636(b)
and Fed. R. Civ. P. 72, without further designation or assignment." LR 72-1. The Court
also randomly assigns newly filed civil cases to both Magistrate Judges and District
Judges. See L.R. 16-1 (a). Thus, in accord with Fed. R. Civ. P. 72, magistrate
judges may preside in cases and issue non-dispositive orders on pretrial matters, even
when consent is not given.
First off, local rules must conform to the Federal Rules of Civil Procedures (Rule 83: “Rule
83,“local rules are required to be consistent with the national rules”), which the “Local
Rules” of the Oregon District Court do not. Secondly, both Judge Aiken and defense counsel
have Rule 72 and 73 reversed. Rule 72, “Pretrial Order”, governs proceedings where all parties
have consented to a Magistrate Judge. Rule 73, “Trial By Consent”, governs the appointment
and c onsent process for Magistrate Judges. Rule 73(b) is the consent procedure.
The section of Rule 72(b) referred to by Judge Aiken (and inappropriately in the District
Brooks; 6:15-cv-000983-MK

Page 13 of 30

Appeal - June 25, 2019

Case 6-:5-ev-C-C'B35~fV1K

■■ ■'; - 14

Court’s Local Rule 72-1) has tp do with_crimma], not civil proceedings. As the

30

notes of the

Advisory Committee make clear, Subdivision B

governs court-ordered referrals of
permissible dispositive pretrial matters and prisoner petitions challenging conditions of
confinement, pursuant to statutory authorization in consent of the parties which is Ihnltwt
to petitions for “relief made by individuals convicted of criminal offence ,.J of nr1-

soner

petitions challenging conditions of confinement”
Local Rule 73-1, states that any Magistrate judge is “subject to the consent of the
parties”, but LR 73-3 both goes on to contradict and violate compliance with Federal Rule 73,
LR 73-1 and with 28 U.S.C. § 636(c). There are no provisions under federal law where

a District
Court can appoint a Magistrate Judge for any period of time or duty if they are objected to by
any party m a dispute. Even the emergency provisions in 28 U.S.C. § 636(f) disallow that lacking
consent.
A footnote to LR 73-3 makes it clear that the District Court fails to understand the
consent provisions of 28 U.S.C. § 636(c)(1), (2),(3) and 28 U.S.C. § 636(d), based upon

case law

and Supreme Court rulings. As the Supreme Court court noted in Roell et al.

v. Withrow, No.
02-69 (2003), “The Federal Magistrate Act of 1979 (Act) empowers full-time magistrate judges
to conduct.. .any or all proceedings in a jury or nonjury civil matter and order the entry of
judgment in the case,’ as long as they are “specially designated... by the district court” and
acting with "the consent of the parties.” The court emphasizes “any” and explicitly maintained
that, where a party objects to the appointment of a Magistrate Judge, anything done by that Judge
is thrown out. See, also, descent by Justice Thomas, with whom Justice Stevens, Justice Scalia,
and Justice Kennedy join:
The majority holds that no express consent need be given prior to the commencement of
proceedings before the magistrate judge. Rather, consent can be implied "where... the
//tfgawf or counsel was made aware ofthe needfor consent and the right to refuse it, and
still voluntarily appeared to try the case before the Magistrate Judge...In my view, this
interpretation of§636(c)(l) is contrary to its text, fails to respect the statutory scheme
and raises serious constitutional concerns. Furthermore, Ibelieve that a lack ofproper
consent is ajurisdictional defect and, therefore, a court ofappeals reviewing a judgment
entered by a magistrate judge pursuant to §636(c) may inquire sua sponte into the
consent's validity.

Brooks; 6:15-cv-000983-MK

Page 14 of 30

Appeal - June 25, 2019

Case 6.15-CV-009B3-MK

The Oregon District Court did

not, never does, make litigants aware of the right to withhold
consent That said, Plaintiff in b oth the case of Russo and Kasubhai, wrote timely objections. The
"implied consent” provision would not apply, but the emphasis upon how seriously the Supreme
Court takes this should be noted, It leads to mandatoiy decision that everything done by a trial'
court from the point of that objection being thrown out. In this case of this case, the District
Court’s misconduct at least makes a fair trial impossible and warrants a new trial in a new venue
imperative. Plaintiff was clearly denied Due Process and the District Court

was clear prejudicial

and acted beyond its discretion.
In his objections to the District Court, Plaintiff maintained that

anything done by either
Magistrate Judge was prejudicial to a fair trial. Plaintiff moved to have all of their actions
stricken from the docket, except where those actions harmed Plaintiff and impeded a fair trial.
Plaintiff notes that both Magistrate Judges Russo and Kasubhai exceeded their authority
as Magistrate Judges and violated 28 U.S.C. § 636(b)(1)(A). In spite of District Judge Aiken’s
contentions to the contrary, the Court docket records shows both Magistrate Judge’s entertaining
defense motions and acting on them for summary decisions, dismissal for failure to state a claim,
suppressing evidence including declarations, etc.
Judge Russo went so far as to block an appeal by Plaintiff under 28 U.S.C. § 636(c)(3)
and Rule 73(c) when Plaintiff attempted to file an Interlocutory Appeal with the Appeals Court
about her exceeding her authority. Judge Russo both prohibited that appeal in violation of Rule
73(c) and permitted defense to file a flurry of inappropriate motions objecting to Plaintiff right to
file it which she heard and used as an excuse to deny the Appeal. This flies in the face of the
Federal Rules and statutory law enacted by Congress that created the District Courts.
Judge Aiken’s reference to 28 U.S.C. § 636(b) is inappropriate and appears to be

an
attempt to create new law to justify the District Court’s trampling Plaintiff’s rights. 28 U.S.C. §
636(b) is a list of functions a Magistrate Judge may perform under the assumption that the
Magistrate Judge is already consented to by all parties. In that sense, it covers issues similar to
Rule 72.
The ensuing errors due to this misapplication of the law are not the harmless errors of
Shinseki v. Sanders. They are violations of the Federal Rules Of Civil Procedure, and violate due
Brooks; 6:15-cv-000983-MK

Page 15 of 30

Appeal - June 25, 2019

process. Plaintiff’s Motion To Reconsider was filed in order to give the District Court an
opportunity to fix its error. At this late date, however, the animus and prejudice have made
further hearing of this case before the Oregon District Courts

any

suspect. A new trial under Rule

59(e) and Rule 60 is the only option.
The Federal Rules exist to prohibit a District Court from imposing a Magistrate Judge on
a proceeding. In this case, imposing is precisely what the District Court did and the District
Court even misunderstand the governing laws they cite to defend their unlawful action. Worse,
however, was so ignoring the objections of Plaintiff that he had to insist on his rights, which
meant incurring “adverse substantive consequences”.
The response of the Court to those objections was to vindictively dismiss this case,
judicial excess and indiscretion by a Judge that should have recused herself is unheard of.
Again, Aiken’s Order of May 14,2019, was not filed until May 17,2019, and that was not even
mailed to Plaintiff for several days. The Court was attempting to deny an appeal to its Order.
Judge Aiken concludes her order with “the Court adopts Magistrate Judge Kasubhai’s
F&R (doc 198) in its entirety. Accordingly, defendant’s Motion To Dismiss is granted, and
plaintiff’s amended complaint is dismissed with prejudice”. How does a Court adopt an F&R
that legally does not exist?

The Court Engaged in Prejudicial Actions and Indiscretions
Judge Russo, even unlawfully conducting Plaintiff’s case, exceeded judicial discretion by
engaging in private discussions with defense counsel about pending motions, by allowing
defense counsel to retain stolen property, by permitting defense counsel to lie to Plaintiff and the
Court with impunity, and by permitting defense counsel to withhold emails, agreements, and
discussions between them and Marianne Dugan, pseudo counsel appointed to represent Plaintiff.
In an email dated August 23,2017, Defense counsel wrote Ms. Dugan:
Dm to the lack ofproduction and the court’s stated ■willingness to hear our motion to
compel next week we are withdrawing the notice of plaintiffs deposition for Monday,
August 28. We reserve all rights to conduct the deposition after the current cut offdate in
accordance with the court’s order. /Exhibit 10J

Brooks; 6:15-cv-000983-MK

Page 16 of 30

Appeal - June 25, 2019

Case o:l£-c,'-' 03£J-!V;r

Note tee date. Defense counsel filed a Motion To Compel on August IS. The docket is

silent until
August 29, when Ms. Dugan files a response to the Motion to Compel. Judge Russo issues a
decision on August 31,2017 [docket #68], sanctioning Ms. Dugan and eliminating Plaintiff’s
nght to discovery. In other words, defense counsel is writing about secret, oil the record and
inappropriate contact between themselves and the court. They admit (1) contact with reganis
to the court’s treating their Motion To Compel with favor and (2) they admit a foreknowledge of
the cutoff dates in court order issued 8 days later, on August 31,2017! “Discovery is extended
until 9/15/2017 for the limited purpose of allowing defendant to review the recently produced
documents and depose plaintiff...
Plaintiff will not hazard to guess if the indiscretion is by the Magistrate Judge

or another
Court officer. Russo was a member of a social organization that included defense counsel,
“OWLS" and their law firm, Stoel Rives, as well as with Oregon Department of Justice Assistant
Attorney General’s that are involved in covering up the wrongdoing that Plaintiff reported and
should have recused herself. Judges Aiken and Russo’s relationship goes back

more than 20
years. Russo was Aiken’s senior staff attorney from 1988 until 2016, were members of OWLS
together, and Judge Aiken sponsored Russo’s Magistrate judicial appointment.
Judicial misconduct is not required to create 'the problems seen here. It merely requires
judicial prejudice. Plaintiff, as a whistleblower against state agents, a (former) governor, a former
Secretary of State and Present governor and Attorney General, all friends of the judges on the
District Court, Judges who have publiciy ridiculed Christians and “conservatives” is public
knowledge.
Plaintiff would, also, direct the Court of Appeals to look at the email Dugan writes to her
fellow qui tam attorneys, about a discussion and agreement pertaining to discovery between
Dugan and Reilley Keating on April 24,2017:
Just had a conferral call with Reilley Keatingfrom Stoel about the wrongful discharge
3) They agree to a two-month extension ofdiscovery (bringing it to some time in
October) because of the above two issues and the fact that I am just coming on board.
According to Ms. Dugan, based on that agreement she left the state for more than two
months to plan her daughter’s wedding, vacation and visit with relatives, and take part in a trial.
Brooks; 6:15-cv-000983-MK

Page 17 of 30

Appeal - June 25, 2019

6 lo-cv~; «uS83-MK

Ehiring that period, which Defense counsel knew about, because they had agreed to it, they
carefully sent letters, made telephone calls to an office landline, and sent emails to Dug
an’s
office that defense counsel knew was a single person office without secretarial services. Steel
Rives sent an RFP, Notice of Deposition, and other papers to a known empty office. They kn

ew
Plaintiffs telephone number and address, just as they knew about Dugan’s fellow attorney’s and
they carefully neglected to inform any of them. It was a dirty trick, a violation of a verbal
contract, and the Court rewarded them for it. So they did it again and again.
Dugan’s fault was in not formalizing the agreement with Stoel Rives and letting them
know that she was a single person office who would not have

secretarial assistance during that
time period. Based on that trick, Judge Russo sanctions Dugan.
At the very least, the Court should have figured out that someone was lying about the'
production conference being put off until October 2017. Either Defense entered into that
agreement and abrogated it, then lied, and should have been sanctioned; or Dugan lied, failed to
communicate with her client, and should have been sanctioned.
In neither case did Plaintiff do anything wrong. So why was Plaintiff punished by having
his right to production ended by the Court? Why, indeed, was.Dugan sanctioned and fined when
she apparently had been tricked?
Plaintiff was given a stash of emails showing defense counsel threatening Dugan with
further monetary sanctions by the Court that seem to involve more secret communications with
the Court, after which she is seen stealing Plaintiff and her fellow qui tarn attorneys documents,
recordings, evidence of fraud, attorney client emails, case strategy documents, drafts and filings
from other cases, records and communications with federal investigators about current cases,
from a locked office used by her fellow qui tam attorneys and sending it all to Stoel Rives.
Plaintiff, Dugan’s fellow counsel, did not know this until October because Dugan flat out lied to
Plaintiff and her fellow counsel.
Defense counsel tried to keep that secret from Plaintiff and the Court, but then erred by
usrng information from a 90 page long strategy document Plaintiff had written. Plaintiff asked
what they had received and filed a Motion for a Protective Order from the Court. Defense
counsels response was to mislead the court with a declaration by legal aide Julie Brown who
Brooks; 6:15-cv-000983-MK

Page 18 of 30

Appeal - June 25, 2019

Case o'15"C,-C0-)33-;v;!\

received documents from Dugan:
On September 13, 2017, Stoel Rives received a letterfrom Ms. Dugan enclosing another
flash drive that contained additional electronic documents produced in response to
Defendant's RFP. Many ofthese documents were duplicative ofthose previously
produced [Exhibit 11]
This was a deliberate falsehood, an attempt to mislead the Court and Plaintiff. Plaintiff suspected
this to be a lie because defense counsel was using information from Plaintiff’s strategy
documents in their filings.
What Stoel Rives received was a memory stick with every piece of evidence qui tam
lawyers had for their case, all of their work product, witness statements, hundreds of hours of
recordings, strategy documents, emails and correspondence with federal investigators, and every
draft or every document Plaintiff had ever written for any administrative or court

action since
being terminated on September 27,2013. This was a deliberate attempt to mislead, one of several
that the Court refused to call them on.
Plaintiff found out what Ms. Dugan had sent when, in response to a court order, defense
counsel sent Plaintiff the memory stick Dugan had sent them on September 13,2017. Why, then,
did the Judge punish him?
Plaintiff had fired Ms. Dugan on September 11,2017. Plaintiff had actually fired her
prior to that, but she worked for the qui tam lawyers and ignored Plaintiff. so did they. Plaintiff
has dozens of emails showing this, too, that he would be happy to provide the Court of Appeals.
The District Court would refused to take motions to fire her from Plaintiff because “he was
represented by counsel”.
Plaintiff made arrangements to pick up the documents stored in the qui tam lawyers
office to protect them. Dugan slipped in and took them on the morning of September 12. Plaintiff
had 12 years worth of original documents stored in plastic sleeves, recordings of his father telling
him stories before he passed away in March. All of those “disappeared”. They have never been
seen again and the Court would not order Dugan to give those back and refused to issue a
subpoena to defense counsel for their return. Ms. Dugan involved in a proceeding to be disbarred
for this, but the District Court could not see fit to sanction her?
Dugan took, and either gave to defense counsel or destroyed, dozens of original
Brooks; 6:15-cv-000983-MK

Page 19 of 30

Appeal - June 25, 2019

<

Case 6:15-cv-OC*383-(v1K

Crr -,

;r.y~ 20 3! 30

documents that Plaintiff had preserved in plastic sleeves. Most of those were original fa—i.
for which no copy exists. TTtey were in the locked office at Leiman and Johnson to protect them
until they could be copied. Some of those were obvious evidence in this case, as with drafts of
statements bearing different dates and altered stories, a letter sent to the Oregon Employment
Department by Agate admitting they had ordered Plaintiff to clean hi

s cubical on August 19,
2013, knowing he was in a cast and on crutches, but Woods claiming that Agate had provided a
garbage can in Brooks’ cubical.
On September 12, Plaintiff wrote an Ex Parte communication to the Court,

and informed
the Judge that he had lost trust in Ms. Dugan, that her fellow qui tam lawyers had recommended
Plaintiff file Oregon State Bar and PLF complaints about Dugan, and try to get PLF to repair the
case she had damaged. The Court immediately sent that to Ms. Dugan. Dugan in turn, took all of
the evidence, including privileged strategy documents, notes, work product, correspondence
about ongoing federal investigations, and sent them to defense counsel. The Court sent an Ex
Parte communication to the attorney that was about!
Plaintiff discovered that the September 13 “memoiy stick” had been sent out via Federal
Express Overnight, late in the afternoon, after the court sent Dugan the Ex Parte communication
and after letting her know that t it was going to allow him to proceed Pro Se th

e next morning.
The envelope was an extra large legal sized document folder that weighed a lot more than a
memoiy stick. Plaintiff asked for a subpoena from Federal Express for that in a legal document,
showing that defense counsel had lied about what they received. The Court refused.

e District Court failed to provide fm accommodations for a disabled litigant
nd caused
ifivons and life threatening injuries in Vinlafinn OfTho
and Section 504 >fThe
Rehabilitation Act
Plaintiff had been injured on the job. Both feet were broken, he had a detached retina, had
developed cancer and had an underlying medical conditions; Epstein-Batx which led to chronic
bladder and kidney infections and a mass in the lower lobe of his right lung. Plaintiff was fired
by Trillium two days after giving providing a demanded MRI and filling out the paperwork for
Worker’s Compensation medical help for a crushed left foot that happened because Trillium
Brooks; 6:15-cv-000983-MK

Page 20 of 30

Appeal - June 25, 2019
i

\

Case 6-15-rv.GS9£3-r.<“! _

'r'J JiV

ordered him to do custodial work, even though he was in a cast and on crutches for a broken
right foot.
Trillium executives altered medical records that were pertinent to this case at Slocum
Orthopedic. Plaintiff produced insurance records, original doctor chart notes, and eye witness
declarations that he was in a wheelchair when altered records had him walking. Eye witnesses
and records show a surgeon at Slocum telling Plaintiff he had to have surgery to avoid permanent
damage his nght foot and plaintiff telling the surgeon that Trillium executive Patrice Koijenek
threatened to fire Plaintiff if he took time off work for surgery. The District Court would

not
permit records or declarations about that. The District Court refused to issue a subpoena or

i
i

Protective Order for those records when, proyably, they were being altered! The District Court
permitted defense counsel to not merely attempt to misrepresent that happening, it permitted
them to represent MODA, Trillium, and Slocum, in refusing to comply with Plaintiff’s legal
HIPAA record requests under 45 CFR § 164.524.
The District Court brazenly and openly took the side defense counsel and state officials
with whom they have a primary conflict of interest.
The Oregon District Court ended this case in the face of evidence and declarations about
unlawful activity by state actors and Trillium executives who do favors for state executives.
The on the job injuries were never taken care of. Plaintiff had to pay, out of pocket, for
surgery to his right foot. The injuries to the left foot were much worse and he was referred to the
Foot and Ankle Clinic in Seattle for surgery. The estimated cost was $70,000, including surgery,
physical therapy, and hospital costs. Plaintiff could not afford that.
As a consequence, plaintiff’s left foot, especially, swells after standing on it or even
sitting for more than 60 to 90 minutes.
Judge Russo ordered plaintiff to “unravel” condensed and sometimes out of sequence
scanned PDF files, assemble single document files from those, rescan them and copy them to a
memory stick and computer, and write a privilege log. Everything in those files had, including
evidence for a qui tarn case, every document plaintiff ever filed with the EEOC, BOLI, Oregon
OSHA, OSHA, the US Department of Labor, attorney-client emails and correspondence,
attorney-client work product, Pro Se work product in other cases, tax and medical documents,
Brooks; 6:15-cv-000983-MK

Page 21 of 30

Appeal - June 25, 2019

i

Oa.se 6:15-c-.-*00S83-MK

Dnc-

at ';o

recordings, nil of that stolen from Plaintiff and surreptitiously given to Defendant. Plaintiff and
his doctors wrote the court asking for accommodations, additional time, for that standing up
scanning for hours harmed Plaintiff. Plaintiff and the other ,ui tam attorneys asked Ms. Dugan
about what she had sent and she lied to them. She was hired by them, was a member of their
team and was supposed to help them and Plaintiff, not steal ton them and give everything she
could lay hands on to Defendants.
Plaintiff stUl has the original memory sticks and notes, locked in a safe. The first memory
stick is from September 21,2017, is accompanied by an email, and claims this is what he sent to
Stoel Rives. The other memory stick is fromStoel Rives on October 20,2017, which is purported
to be the memory stick Ms. Dugan sent them on September 13,2017. The differences between
these is enormous and the District Court refused to even look at them. They not only prove Ms.
Dugan trying to wreck Plaintiff’s OSHA and EEOC proceedings, the qui tam case, and this case,
they show her deliberately wrecking investigations, even providing defense counsel with
precisely the same evidence that federal investigators had. The result of that was Trillium’s
parent company closing down shells under investigation.
Plaintiff could figure out from Defense filings that Dugan had given them his Court
strategy documents, notes, and evidence, and filed a motion with the court to have those returned
to Plaintiff and to have original documents for which no copy existed returned to Plaintiff.
Judge Russo refused that and Plaintiff was given three weeks to take 5.2 GB of PDF files
that contained as many as 20 documents, print those out, separate them into individual files, scan
them, and write a privilege log for them.
The cost of toner, paper, memory sticks, cost Plaintiff over $2000 for the smallest
memory stick provided by Defense counsel. That was money Plaintiff needed for medicine,
doctors, housing, and basic living expenses. Second, desperately frying to avoid sanctions by a '
Judge who was acting like she was an agent for the defense and state. That landed plaintiff in the
emeigency room on October 24,2017, in urgent care centers on October 31 and November 3,
2017, m doctors offices on November 3 and twice on November 7. Plaintiff was sent to see
several doctors and a specialist for increasing paralysis and pain on November 3 7, and 10,2017.

Brooks; 6:15-cv-000983-MK

Page 22 of 30

Appeal - June 25, 2019

Case 6;i.5-c: -00983-MK
' -.i

V 30

Motions from Plaintiff and letters and telephone calls from doctors were ignored by the District
Coort. The result was back and neck injuries caused hv four.
" aS/s“ extensi011 of disk material seen “Kriorly at the level of L2/L3 and posteriorly

• L4/L5 broad based disk bulge
• L5/S1 broad based disk bulge
The injuries to the neck are even worse. The disk and vertebra at C5/6
> are severe and are
internally decapitating Plaintiff. Please, look at the MRI set is provided as PvMM. 6.
Plaintiff is providing the MRI’s as Exhibit 5 and 6. These are provided to show gross
nggUgenCe by

Court- ^is bolstered by doctor’s chart notes that confirm that these injuries

happened as a direct result of Court actions and judicial misconduct[Exhibit 8].
The Oregon Court was asked to provide counsel, provide some kind of accommodati

ons
on multiple occasions. Plaintiff wrote an Interlocutory Appeal pleading for relief by the Ninth
Circuit that was blocked by Judge Russo. Instead, the District Court caused

permanent and life

threatening harm to Plaintiff.
Plaintiff’s insurance is now through his wife’s work. She is a public school teacher.
School teachers are insured through OHP, MODA Health. MODA uses eviCore/CareCore for
utilization/benefits management. In Oregon, Trillium acted as eviCore when Plaintiff’s doctors
were trying to get services for the damage done to his spine and back. The spinal damage
effected the brain stem, which led to high temperatures, impaired or completely missing
automatic reflexes (1+ in the knees and 0 in the ankles, paralysis of the left side). Trillium denied
medical services for over a year, while symptoms grew steadily worse. Plaintiff asked for the
court’s intervention, because this was obviously continued retaliation. By December 1 ,2018,
Plaintiff had lost the use of his left hand completely. He had to dictate documents for this

case
into an iPad and have them edited by friends. Magistrate Judge Russo, and, then, Magistrate
Judge Kasubhai refused to provide accommodations.
Plaintiff ended up in the emergency room on December 1,2018. The ER unit admitted
him directly to the hospital to circumvent Trillium’s denying care and ran a series of more than
Brooks; 6:15-cv-000983-MK

Page 23 of 30

Appeal- June25, 2019

Case 6:15-c --C0983-MK

16-'■

20 tests while keeping Plaintiff hospitalized for four days. Plaintiff was released into the care of
ER doctors and ended up in surgery for the neck injuries on January 17,2019.
Plaintiff experienced a “cardiac event” while on the operating table, his heart stopped.
The heart restarted with atrial flutter [Exhibit 8. The pooling of blood led to

a clot, [Exhibit8,

D. Diemer result] which ended up in plaintiff’s leg...by sheer luck avoiding

a stroke.
Subsequently Plaintiff experienced more than 60 a. flutt
er events coupled with interleaved atrial
fibrillation [Exhibit 8], and forcing Plaintiff into taking 12 different drugs just to permit his neck
to heal up enough so he can have heart surgery. Coupled with this, too, Plaintiff has

nerve

damage that has made swallowing difficult and, at times, impossible.
All of that stems from District Court negligence between October 22

and November 15,

2017, and subsequent refusal to provide for accommodations.
Subsequent to those injuries, Plaintiff asked the court to appoint counsel. The court made
one small attempt and appointed a Pro Bono attorney for six hours to draft an Amended
Complaint by a well known employment attorney. Judge Aiken dismissed the Amended
Complaint in her order of May 14 (or May 17). However, for a Court to prohibit a disabled,
impoverished, Pro Se litigant, to be access to counsel to draft an amended complaint acceptable
to the court flies m the face of multiple Supreme Court cases and is another denial of Due
Process.
1x1

v‘Novartis Pharmaceuticals Corp, 13-3762-CV, the Second Circuit issued a

decision that overturned the Eastern District of new York dismissal of Garay’s age discrimination
case:
it erred in denying [the plaintiff] leave to amend her complaint on futility grounds. As a
general rule, leave to amend should he freely given, and a pro se litigant in particular
should be afforded every reasonable opportunity to demonstrate that she has a valid
claim. We have thus held that a pro se complaint should not be dismissed without the
Court granting leave to amend at least once when a liberal reading of the complaint
fes any indication that a valid claim might be stated. An amendment to a pleading is
futile ifthe proposed claim could not withstand a motion to dismiss pursuant to Rule
12(b)(6).
Plaintiff wrote the Court that he was more than willing to file an amendment to a
complaint that the court wished, but that he was unable to do so without assistance; and Plaintiff
Brooks; 6:15-cv-000983-MK

Page 24 of 30

Appeal - June 25, 2019

Case 6:15-C;<-G0S83-MK

led 06,-'2(v'2 G

Paae 25 of 30

asked for assistance. Plaintiff looked at the work Mr. Crispin had done, however, and it looked
like ever other complaint Plaintiff has seen that was acceptable to Courts. Plaintiff suspects that
the District Court was applying subjective standards. Mr. Crispin is a very respected
employment attorney that does not make many errors. Plaintiffis supplying that Amended
Complaint, however, with this Appeal. [Exhibit 12]
Exhibit 13 is a photograph of Plaintiffs foot after standing for 90 minutes doing
scanning. The District Court Judge ridiculed that evidence. The right foot had

surgery. Plaintiff
had to pay for that. Surgical costs for the left foot are $70,000 which Plaintiff cannot afford.
That
injury was clearly a result of harassment for whistleblowing and happened on the job. Agate
went to great lengths to destroy documents with regard to that, but there are still records and
witnesses of it.
Again, what possesses a District Judge to throw out an already proven claim for medical
costs for an on the job injury? That happens when the District Judge is retaliating against
Plaintiff for opposing her bullying and when, she is helping state political fiends. This begs for a
federal investigation.

Additional Errors By The Court; Summary; Mistrial. Bute 59 and Wni*
In her first order, Judge Russo wrote repeatedly about this being a five year old case and
she blamed Plaintiff for that. When Judge Russo received the case it was a year and

a half old

and had been held up by repeated motions to extend time by defense counsel.
Plaintiff, in 2015, attempted to get discovery started, resorting in trying to compel
discovery. Defendant’s filed flurries of motions and stalled. When Plaintiff managed to get the
Court to order a discovery conference, Steel Rives Attorney Ryan Gibson discovered that
Plaintiff had records of Trillium and it’s President, Dr. Thomas Wuest, engaged in an elaborate
scheme to commit fraud by misusing CPT codes. Plaintiff described in documents how that
scheme worked, and Plaintiff showed exactly how to detect those pattems.
The following day Plaintiff was contacted by a state employee, Sandra K. Hilton, who
worked for the Secretary of State’s Audit Division, wanting those records. This is odd because
Brooks; 6:15-cv-000983-MK

Page 25 of 30

Appeal - June 25, 2019

i

L-ctSG o .Lb-Cv-0u9B3-.\-1 K

;:anfe 26

the last time Plaintiff spoke with that office was on Februaiy 15,

iG

2012, more than three and a half

years before. Plaintiff informed the court of this. Nothing was done except Mr. Gibson left and
Stoel Rives stalled the case with motions to extend time, and a fluny of time wasting motions.
Judge Kasubhai ranted about Plaintiff having had five lawyers and filed 20 motions, all
of which are provably factually incorrect assertions by a Magistrate Judge that did nothing

more

than muddy the waters in this case.
Plaintiff had two attorney’s. One attorney Plaintiff retained,

The other, Ms. Dugan, was
hired by qui tarn attorney’s. And that attorney, Ms. Dugan, met with Plaintiff exactly
one time. A
third, Mr. Crispin, and excellent attorney, was retained for six hours by the Court.
The Motions were required individual motions for six declarations, three legally made
telephone recordings and Court demanded cover sheets in a particular format for

each of these

separately.
The District Judge’s accepting them places her in the position of basing her decision

on a
non-existent document, writings of a unlawfully emplaced Magistrate Judge that has no legal
authority and amounts to poisoning a case already damaged by District Court mishandlin

g-

Per Lubben v. Selective Service System Local Board No. 27,453 F.2d 645 (First Circuit Court of
Appeals) “A court must vacate any judgement entered in excess of its jurisdiction” or in case of
fraud to the court. In 6:14-cv-01424-AA, on multiple grounds, the Order to Dismiss should be
vacated, an order for a new trial issued, and this case removed from the Oregon District Courts.
Again, under Rule 60(b)(4) a “...judgement is a void judgement if the that rendered judgement
lacked jurisdiction of the subject matter, or of the parties, or acted in a matter inconsistent with
due process”. Plaintiff will be drafting such a motion with friends this next week and filing it.

Defense counsel routinely misleads the Court and is rewarded for it. Plaintiff cannot
under stand this. In 6:14-cv-01424-AA Defense counsel misrepresented the requirements of CPT
I
!

code, 20680. They were so successful at this that the record of a transcript of a hearing on June
16,2017, that the Judge is seen arguing the Defendant’s case for them.

Brooks; 6:15-cv-000983-MK

Page 26 of 30

Appeal - June 25, 2019

!

-ase 6:15-Cv-()0&83-.:1K

f'

06/2A\lv

Judge McShayne: "... m,your briefing thatprocedure code applies to the removal of
hardware during a surgical procedure and that there could be more than one piece of
^tienV’ ISUPP°Se th£re COUld be multiPte Pieces ofhardware being removedfrom a
Ms Keating: "Right. Exactly. And that was one example, potentially ofanother
explanationfor why this is not duplicative billing. ”
The problem is 20680 can be used only one time for an implant, no

matter how many punctures
it takes to tighten or remove it (typically four). In their Brief, Trillium’s counsel deliberately
misrepresented the CMS rules about that procedure, so much that a federal judge not only argued
for them, he allowed them to override federal law in deciding the case.
Defendant’s are state contractors that are experts in their knowledge of those CPT codes;
indeed, could not be state contractors if they were not experts. Per CMS and AAPC:
20680, describes a unit of service that is reported only once provided the original
injury is located on one she, regardless of the number ofscrews, plates, rods or
masions.An example would be the removal ofa single implant system, which may call
Jor stab or multiple incisions (eg, intramedullary (IM) nail and several locking bolts).
Multiple use ofcode 20680 would be appropriate only when the hardware removal was
performedfor anotherfracture in a different anatomical site unrelated to the first
fracture (eg, ankle and humerus)...’’
All of the claims billing records in the examples used a single main DX code, which
would have disallowed even two billing claims for 20680, but those claims records have it billed
seven or more times, often with the facility as the primary surgeon and Agate’s own President as
the assistant suigeon. Now, 20680 does not permit an assistant surgeon and using the facility
code and hiding the identity of any surgeon involved in a surgery is a felony under 42 U.S.

Code
§ 1320a(l), (5), and (i). Plaintiff notes that the statute of limitations for charging Agate and that
doctor for that felony still has not expired. Likewise, under Rule 60, “fraud upon the court by

an

officer of the court”, that case can and should be reopened.
Worse, the judge dismissed the case because plaintiff could not meet a spurious standard
set by Aiken. She required evidence of fraud within a six year period of filing the case when the
actual federal rule is within six years of reporting the fraud to federal investigators.. ..and that
happened when plaintiff met with CMS and HHS investigators on July 1,2014. Even then, the

Brooks; 6:15-cv-000983-MK

Page 27 of 30

Appeal - June 25, 2019

Case 6:l5-cv-0C9c>S-A'K

supervisors of those investigators did not listen and Plaintiff filed th

equi tarn case, 6:14cv-01424-AA, on September 3,2014, as the request of one of the CMS investigators.
In fact, the time bar on whistleblower retaliation claims under FCA appears to be either
three years or six years from ffihfiii the government lfta™ed of th*. fak*

^a

by

the Eleventh Circuit Court of Appeals, not when the plaintiff learned of it (5:13

-cv-02168-RDP;
Umted State ex rel Billy Joe Hunt v Cochise Consultancy, Inc. and the Parsons Corporation).
The U.S. Supreme Court upheld that decision in Cochise Consultancy, Inc. v. United
States ex rel. Hunt, No. 18-315,2019 WL 2078086 (U.S. May 13,2019). In its decision, the
Supreme Court essentially added four years on the time available for private suits to be brought
by whistleblowers/relators under the False Claims Act (“FCA”), regardless of whether the
Government decides to intervene.
Finally, and the most troubling thing to Plaintiff’s mind, is an altered fraudulent
declaration purportedly signed by him, which is swears under penalty of perjury he did not sign.
The docket number in 6:14-cv-01424-AA/MC is #55. The signature appears to be genuine

and
Plaintiff is guessing that it was cut from another document. The filing for that is by a Court
appointed Pro Bono lawyer. That declaration materially effected the qui tarn case.
I

Under Rule 60, Plaintiff is asking that this case be reopened.
A District Court Judge is simply not permitted to argue for either side in a case,

especially when they are proven wrong. In the mess created by Defense Counsel misleading the
Court and the District Court apparent anxiously looking for any excuse to dismiss a case that
impacted their corrupt state government, the Court managed to make itself look ridiculous and
incompetent. Plaintiff appeals the dismissal of 6:14-cv-01424-AA/MC based on fraud, mistakes
and ignorance by the court in not understanding CMS regulations and case law. That case needs
to be re-opened under Rule 90 in a new venue, free from the machinations of Oregon, also.
Defense counsel did exactly the same thing in Plaintiff’s U.S. Department of Labor case.
They managed to game the sur reply system with teams of lawyers, one them filing while
another waited for a filing by Plaintiff and filed a response. They misled the ALJ into believing
that BOLI did not take whistleblower cases and cannot cross file them. Well, as any Oregon
resident knows, BOLI in fact has filed and cross filed whistleblower retaliation claims.
Brooks; 6:15-cv-000983-MK

Page 28 of 30

Appeal - June 25, 2019

CciS8 c, io—./-ebsBd-A'IK

Joou:P«',rV 2

In that series of claims, Agate double and triple billed for anesthesia (01400, R370 and as
R250); previously billed medication (J1885, R250). In the nine examples Brooks showed a
pattern of fraud, showed how Agate perpetuated that fraud, and wrote about the exact

amount of
fraud. For just those nine examples, the fraudulent billing was in excess of $30,000. Just the
series for that one doctor claims fraud totaled over $2 million dollars through 2007. The fraud
continued through August 2013, and Plaintiff saved records of that on his workstation

and

reported it to Oregon officials (OHA).
Prayer For Relief
Plaintiff asks for a new trial and a different venue free from the influence of Oregon.
• Plaintiff asks that Stoel Rives and all experts witnesses be disqualified in accordance with the
Rico v. Mitsubishi Motors Corporation; and specifically for violations of ABA Rule 1.6(b)(6),
Rule 8.4(c), Rule 4.4(b), and for Rules 3.3 and Rule 3.4 .
• Plaintiff asks for the iinvolvement of the Federal Bureau of Investigation for felony alteration
of Plaintiff medical records at Slocum Orthopedic which resulted in serious, permanent health
consequences, and shortened Plaintiff’s life by years
• Plaintiff asks for the involvement of the Federal Bureau of Investigation to investigate
malware/spyware use by Defendant’s, unlawful intrusions, wiretaps, Internet hacking and cell
phone hacking, for trespass, threats and acts of violence directed against Plaintiff and
members of his family
Plaintiff asks for the involvement of the Federal Bureau of Investigation to unlawful acts
against Oregon Health Plan patients by the state of Oregon. This shall include any records
pertaining to patient profiling, medical redlining, the sale of patient medical records,
fraudulent billing, and the alteration and use of records in order to provide medically assisted
suicide instead of patient care
• Plaintiff asks for the return of all records stolen from him and sent deliberately or accidentally
to defense counsel.
Plaintiff asks or the return of all records stolen from him by Ms. Dugan and still in her
possession

Brooks; 6:15-cv-000983-MK

Page 29 of 30

Appeal - June 25, 2019

.%

Case 6:15*cv-G0S83-MK

Document 216-i

Fled 06/26/1?

P*g© 30of 30

• Plaintiff asks for a full accounting of the whereabout of his records, keepsakes and properly.
Plaintiff asks that the state if Oregon be required to provide Plaintiff with a full accounting of
the filing h6 did with Oregon’s Bureau of Labor and Industries. In particular, Plaintiff wants
any notes, paperwork, recordings with regard to his filings with BOLI and an explanation as to
why BOLI failed to file those complaints in a timely manner
• Plaintiff asks for the appointment of counsel.
• Plaintiff asks for sanctions against both the Portland Office of Stoel Rives, the Oregon

'

Employment Department, and the Oregon Department of Labor, especially BOLI.
Oregon OSHA and BOLI, in legally recorded telephone conversations, show that
they botched their contract with the federal government and failed to file and
competently handle complaints and claims by Plaintiff. If They had handled injury
claims, Workers Comp claims, FMLA claims, Plaintiff would not have incurred life
threatening injuries. Tens of thousands of patients would not have needlessly suffered
and the United States of American would not have paid out hundreds of millions of
dollars in fraudulent claims.
Plaintiff, under advise from BOLI, deliberately filed Civil Rights complaints
against Defendant for profiling patients based on race, language, sex, age, disability,
religion, National origin, and children’s status as foster children. Those are legitimate
Title VII claims that Plaintiff asserted on behalf of those patients and suffered retaliation
for that Act That said, under Title VI, the state of Oregon and that includes Magistrate
Judges in communication with state actors, enjoy no immunity for damages inflicted on
plaintiff or those OHP patients.

Michael ,T. Books c
Plaintiff in Pro Se

Brooks; 6:15-cv-000983-MK

Page 30 of 30

Appeal - June 25, 2019

APPENDIX B
US DISTRICT COURT FOR THE DISTRICT OF OREGON
6:15-cv-00983
Brooks v Agate Resources, et al

WUOU O.J.O o V

UVi/l/W

iriiv

L/UUUI I IV.,I it 4*XW

t ftv^w w*//XT'/xw

«

uyv X VI X

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
EUGENE DIVISION
MICHAEL T. BROOKS,

No. 6:15-cv-000983-MK
Judgment

Plaintiff,
v.
AGATE RESOURCES, INC., dba,
Trillium Community Health Plan,
Defendant.
AIKEN, District Judge:

The Court has adopted the Findings and Recommendations of the Magistrate
Judge (doc. 198) granting defendant’s Motion to Dismiss (doc. 137). Accordingly, this
action is dismissed, with prejudice.
IT IS SO ORDERED.
Dated this

day of May 2019.

Ann Aiken
United States District Judge
1 ■ JUDGMENT

5/17/2019

District of Oregon CM/ECF LIVE Release Version 6.1

L'.S. District Court
District of Oregon
Notice of Electronic Filing
The following transaction was entered on 5 17 2019 at 10:02 AM PDT and filed on 5 142019
Case Name:
Brooks v. Agate Resources
Case Number;
6;15-cv-00983-MK
Filer:
WARNING: CASE CLOSED on 05/14/2019
Document Number: 211
Docket Text:
JUDGMENT:. The Court has adopted the Findings and Recommendations of the Magistrate
Judge (doc. 198) granting defendant's Motion to Dismiss (doc. 137). Accordingly, this action is
dismissed, with prejudice. (Mailed to Pro Se party on 5/17/2019.) Signed on 5/14/2019 by Judge

6: J 5-cv-00983-MK Notice has been electronically mailed to:
Michael T Brooks

mibrooks^mac.com

Reilley D. Keating

reilley.kearing(a.,stoel.com. dmholland&stoel.com, docketclerkfa stoel.com

Stephen H. Galloway

shgalloway/astoel.com. dmhollandfa stoel.com. docketclerk:« stoel.com

6:15-cv-00983-MK Notice will not be electronically mailed to:
The following document(s) are associated with this transaction:

httnc//nrf Arrl PirrO

UilJ'bV VVJUV(V|t\

^UbUIIIVrfill L*X,L.

HL»U

J.-TI J-C/

v- j. wi -r

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
EUGENE DIVISION
MICHAEL T. BROOKS,
Plaintiff,

No. 6:15-cv-000983-MK
ORDER

v.

AGATE RESOURCES, INC., dba,
Trillium Community Health Plan,
Defendant.
AIKEN, District Judge:
On March 22, 2019, Magistrate Judge Mustafa Kasubhai issued his Finding s
and Recommendations (“F&R”) (doc. 198) recommending that defendant's Motion to
Dismiss (doc. 137) be granted and plaintiffs amended complaint (doc. 135) with
prejudice. 22, 2019. This case is now before me. See 28 U.S.C. § 636(b)(1)(B) and Fed.
R. Civ. P. 72(b).
When either party objects to any portion of a magistrate judge’s F&R, the
district court must make a de novo determination of that portion of the magistrate
1 - ORDER

U.X^'UW wovvv

WWUtUUlU

JL£_

lltu W«J/X^/

u^w x Wi *T

judge’s report. See 28 U.S.C. § 636(b)(1); McDonnell Douglas Corp. v. Commodore
Business Machines, Inc., 656 F.2d 1309, 1313 (9th Cir. 1981), cert denied, 455 U.S.
920 (1982). Plaintiff has filed timely objections* (doc. 200), and defendant has filed a
timely response to those objections (doc. 202). Thus, this Court reviews the F&R de
novo.
Having reviewed the objections and responses, F&R, as well as the entire file
in this case, the Court finds no error in the thorough order of the Magistrate Judge.
Thus, the Court adopts the F&R (doc. 198) in its entirety. Accordingly, defendant’s
Motion to Dismiss (doc. 137) is GRANTED.
Further, since submitting his objections to the F&R, plaintiff has also filed
what is styled as a Motion for Mistrial and New Trial (doc. 203) pursuant to Fed. R.
Civ. Pro 59. Importantly, there has been no jury or bench trial in this matter, nor
has a final judgment been entered. Plaintiffs motion fails as matter of law and is
accordingly DENIED. Plaintiffs request for a change of venue is also denied as
jurisdiction is proper in the District of Oregon.
In the motion for new trial, plaintiff continues to raise complaints about this
case being assigned to a Magistrate Judge, and he requests that this Court vacate
“all orders, motions and work done by Magistrate Judges.” Pl.’s Mot for New Trial at
29. Plaintiff aigues that he never consented to have this case heard by a magistrate

The Court does not consider plaintiffs second “response” (doc. 211) as it was untimely,
and the Court did not grant plaintiff leave to file supplemental briefing beyond what is allowed in
the Local Rules.
2 - ORDER

^WtWV U.lO'bV

'-'WW'IVM V

I IU| a C-J^L.

1

'*W Ww/ X“T/ XU

v vi **r

judge, and it is true th at fall consent has not been given by the parties.
notes, however, that the District

The Court

of Oregon's Local Rules “designates

Magistrate Judge to conduct all pretrial p

every

roceedings authorized by 28 U.S.C. § 636(b)

and Fed. R. Civ. P. 72, without further designation or assignment.”

LR 72-1. The
Court also randomly assigns newly filed civil cases to both Magistrate Judges
and
District Judges. SeeL.R. 16-l(a). Thus, in accord with Fed.
R. Civ. P. 72, magistrate
judges may preside in cases and issue non
-dispositive orders on pretrial matters, even
when consent is not given. However, when dealing with dispositive
motions in cases
where consent has not been given, Magistrate Judges must i
issue a F&R for the
District Court’s consideration. Fed. R. Civ. P.
72(b) An F&R is not a final order, and
when objections are made by either party the district
court must review the objected
portions of the F&R under a de novo standard.
These procedures have been followed i
m this case. This case was initially
assigned to Magistrate Judge Coffin, and later Magistrate Judge Russo and finally
Magistrate Judge Kasubhai. All magistrate judges have entered non-dispositive
orders regarding pre-trial matters. Plaintiff was free to appeal those orders to the
District Court pursuant to Fed. R. Civ. P.
180 and 190),

72(a), which he did on two occasions, (docs.

Further, when considering defendant’s

motion to dismiss, the
Magistrate Judge issued a timely F&R, which is now before this Court. Th
us, because
this routine practice is authorized under Fed. R. Civ. P
- 72 and 28 U.S.C. § 636,
plaintiff’s request that this Court strike all previous decisions by
the Magistrate
Judges in this case are denied.
3 - ORDER

v-/ V

VUs/UO tVHS

I i <M> I lb tmJmAm

I

111*14 WU/ J.T/

i uyu -f w, *r

As noted above, the Court ADOPTS Magistrate Judge Kasubhai’s F&R (d oc.
198) in its entirety.

Accordingly, defendants Motion to Dismiss (doc. 187) is

GRANTED, and plaintiffs Amended Complaint (doc. 135) is dismissed, with
prejudice.
IT IS SO ORDERED.
Dated this /4j ^ay of May 2019.

Ann Aiken
United States District Judge

4 - ORDER

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

JUL 1 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

MICHAEL T. BROOKS,
Plaintiff-Appellant,
v.
AGATE RESOURCES, INC., DBA Agate
Healthcare (Oregon ABN 695284-96), DBA
Apropo Benefits Management, LLC, DBA
Employers Health Alliance, LLC, DBA
Health Policy Research Northwest, DBA
Lane Home Medical, LLC, DBA Lane
Individual Practice Association, Inc., DBA
Trillium Advantage, DBA Trillium
Community Health Plan, DBA Trillium
Community Health Plan, Inc., DBA Trillium
Community Health Plan, LLC, DBA
Trillium Coordinate Care Organization, Inc.,
DBA Trillium Medicare, DBA Trillium
Sprout,

No.

19-35547

D.C.No. 6:15-cv-00983-MK
District of Oregon,
Eugene
ORDER

Defendant-Appellee.
The court’s records reflect that the notice of appeal was filed during the
pendency of a timely-filed motion listed in Federal Rule of Appellate Procedure
4(a)(4), and that motion is still pending in the district court. The June 26, 2019
notice of appeal is therefore ineffective until entry of the order disposing of the last
such motion outstanding. See Fed. R. App. P. 4(a)(4). Accordingly, proceedings
in this court are held in abeyance pending the district court’s resolution of the

JW/Pro Se

pending May 24, 2019 motion. See Leader Nat’l Ins. Co. v. Indus. Indent. Ins. Co.,
19 F.3d 444, 445 (9th Cir. 1994).
Within 14 days after the district court’s ruling on the pending motion,
appellant shall file a written notice in this court: (1) informing this court of the
district court’s ruling; and (2) stating whether appellant intends to prosecute this
/

appeal.
To appeal the district court’s ruling on the post-judgment motion, appellant
must file an amended notice of appeal within the time prescribed by Federal Rule
of Appellate Procedure 4.
The Clerk shall serve this order on the district court.

FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT

By: Joseph Williams
Deputy Clerk
Ninth Circuit Rule 27-7

JW/Pro Se

2

Additional material
from this filing is
available in the
Clerk's Office.

A

